<html>
<title> - GLOBAL EFFORTS TO DEFEAT ISIS</title>
<body><pre>[Senate Hearing 114-754]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-754

            GLOBAL EFFORTS TO DEFEAT ISIS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                              JUNE 28, 2016
                               __________



       Printed for the use of the Committee on Foreign Relations





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-676 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  






















                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

McGurk, Brett, Special Presidential Envoy for the Global 
  Coalition to Counter ISIL, U.S. Department of State, 
  Washington, DC.................................................     4
    Prepared statement...........................................     7
    Responses to Additional Questions Submitted for the Record to 
      Brett McGurk by Senator Marco Rubio........................    44
    Responses to Additional Questions Submitted for the Record to 
      Brett McGurk by Senator Barbara Boxer......................    51
    Responses to Additional Questions Submitted for the Record to 
      Brett McGurk by Senator Ron Johnson........................    56




                             (iii) 
 
                     GLOBAL EFFORTS TO DEFEAT ISIS

                              ----------                              


                         TUESDAY, JUNE 28, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker, Rubio, Johnson, Flake, Gardner, 
Perdue, Isakson, Barrasso, Cardin, Menendez, Shaheen, Murphy, 
Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    Mr. McGurk, I would like to thank you for again appearing 
before the committee. You have always been a direct witness, 
and we thank you for that. I think after most of your 
testifying, whether classified or in public, most people leave 
far more informed than they do with most witnesses, and 
hopefully you will live up to that today.
    Almost 2 years after we began military operations, ISIS has 
lost significant amounts of territory: 47 percent of its 
territory in Iraq and 20 percent in Syria, according to your 
testimony.
    Unfortunately, that progress on the ground creates new 
threats to our national interests. As our CIA Director said 
this last month, as you continue to make gains, ISIS will 
likely intensify its global terror campaign and that the 
administration's efforts have not reduced the group's terrorism 
capability and global reach.
    The New York Times reported recently that 1,200 people 
outside of Iraq and Syria have been killed in attacks either 
inspired or coordinated by ISIS, and nearly half of those 
deaths occurred in attacks targeting Westerners.
    In the wake of the recent terrorist attack in Orlando, we 
expect you to provide and hope you will provide an honest 
assessment of where the global fight against ISIS is going and 
address some of the fundamental questions we all have. In 
particular, I would like to get your view on what actions the 
coalition has taken to counter the increased terror threat 
posed by ISIS in spite of the organization's losses in Iraq and 
Syria, again which we herald, and how the coalition plans to 
actually defeat ISIS militarily.
    Some of the other questions I hope you will answer include: 
do the Syrian democratic forces--and I think there is a lot of 
confusion about the various coalitions that are countering 
Assad but also countering ISIS, which is primarily made up of 
Kurds with an Arab contingent--have enough people to clear ISIS 
from the northern Syria area?
    And even if we continue to take back territory from ISIS, 
are those gains backed by political progress necessary to 
sustain them? Obviously, there are rubs between that group and 
others, rubs between that group and Turkey itself. And as we 
leave it to its own accord, if you will, with these groups 
taking on ISIS in their own ways and taking on Assad in their 
own ways, are we really creating something that down the road 
is going to take us to a political settlement? Or is success on 
the battleground leaving behind the same vacuum that led to 
ISIS in the first place?
    And finally, how do you reconcile the continued glaring 
disparity in Syria between a military campaign focused on ISIS 
and a failing diplomatic process dependent upon a transition 
from Assad? I do not see how the ISIS coalition can be 
successful while the Syrian civil war continues.
    This administration has declared that Assad must go, but it 
certainly appears as if that position is changing or has 
changed. I do not see how what is left of the political process 
possibly leads to Assad's departure. And I hope you will really 
help us understand what is happening behind the scenes there.
    I also fear that in spite of continued attacks on our 
homeland, our military response to ISIS does not adequately 
reflect the direct nature of this threat to the United States. 
I think many of us grow frustrated when the administration's 
optimistic rhetoric does not often match the results.
    Additionally, much of our reliance on proxies to do the 
fighting is creating a range of diplomatic and political 
problems that will have ramifications for years to come.
    With that, again I want to thank you for your service to 
our country. I want to thank you for the way that you talk with 
all of us in such a direct manner. We look forward to your 
testimony.
    With that, our distinguished ranking member, Senator 
Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman.
    I first join you in welcoming Mr. McGurk here and thanking 
him for his service to our country in a critically important 
position. And I agree with the chairman's assessment. Every 
time you have appeared before our committee, either in open or 
closed sessions, we learn a lot and we have a great deal of 
confidence in the information that you are presenting to us. So 
thank you again for the manner in which you have conducted this 
office.
    Mr. Chairman, ISIS is a global threat both to the physical 
safety and the democratic values we hold dear. It destabilizes 
already weak states, inflicts horrible acts of brutality, and 
inspires radicalization of individuals to perpetuate terrorism 
within their own countries as we and our allies have 
experienced.
    As we see every day across the Middle East, Europe, and 
elsewhere, ISIS attacks and propaganda are designed not only to 
kill but to turn communities against one another, Sunnis 
against Shia, Muslim against Christian, immigrants against 
citizens. To defeat ISIS, we are mobilizing the international 
community militarily, economically, and diplomatically to 
shrink ISIS's safe havens, expand our humanitarian support, and 
combat extremism in all forms, both online and our own 
political discourse.
    Due to the efforts of the administration, the United States 
leads a 66-nation coalition united against the scourge of ISIS 
terrorism. In the military sphere, we are shrinking ISIS's safe 
havens in places like Fallujah in Iraq, in Manbij, Syria, and 
Sirte, Libya. Their flow of foreign fighters has been cut, and 
they have lost millions in revenues. Yet, as I am sure our 
witness will agree, there is a lot more that needs to be done. 
There are no quick answers to this challenge.
    These efforts have not been without serious costs. We stand 
in solidarity with countries such as Jordan, which suffered 
another terrorist attack in recent days. I commend our witness, 
Mr. McGurk, for his recent visit to Jordan where he reiterated 
our unwavering support to the Jordanian people.
    We know our global efforts to fight ISIS will not be easy. 
As CIA Director John Brennan recently testified, as ISIS 
suffers even heavier losses, it will intensify its global 
terror campaign. We have got to be careful about that. We might 
be able to contain them on the ground, but then what happens 
with global terrorism?
    But we must remain steadfast and redouble our efforts 
especially in the newly liberated areas formerly held by ISIS. 
In Fallujah, as we speak, tens of thousands of people who have 
been freed from ISIS captivity are now living in displacement 
camps in horrible conditions under intense summer desert heat.
    I commend our administration's recent pledge to provide an 
additional $20 million in humanitarian aid to the United 
Nations High Commissioner on Refugees' Iraq response. But more 
needs to be done. I call on our other partner nations, 
especially those in the Arab Gulf States to assist Fallujah 
residents desperately needing water, sanitation, food, and 
shelter. We cannot let those who have fled ISIS suffer even 
more.
    On July 20th, the United States will join with Canada, 
Germany, and Japan to co-host a pledging conference in 
Washington. This is a critical opportunity for the 
international community to continue to support humanitarian and 
stabilization efforts in Iraq.
    In addition to our humanitarian efforts, our coalition must 
work harder on long-term reconstruction and reconciliation 
efforts. In the absence of effective services, fair political 
participation and good governance, the defeat of this version 
of ISIS will only lead to another. The real weapon against ISIS 
and their ilk comes not just from the barrel of a gun but from 
the ballot box, the schoolhouse, the courts, and a growing 
economy. Prime Minister Abadi needs international aid now to 
rebuild Ramadi and Fallujah, and he needs international support 
to keep spoilers such as Iran from its interference in Iraqi 
politics.
    Let me conclude with this. As I stated earlier, ISIS 
challenges not only our physical well-being but our principles 
of pluralism and openness. Let us commit not only to defeating 
ISIS on the battlefield but defeating their poisonous narrative 
of division. We are all in this fight together no matter what 
your religion, sexual orientation, or nationality. If we are 
truly going to fight ISIS globally, then we must fight the 
forces of divisiveness at home and abroad.
    Mr. Chairman, I look forward to hearing from our witness.
    The Chairman. Thank you so much for those comments and your 
leadership.
    With that, Mr. McGurk is Special Presidential Envoy for the 
Global Coalition to Counter ISIL. You business card must be 
very large.
    We thank you for being here today. I know that you realize 
you can summarize your comments, if you wish. Your written 
testimony, without objection, will be entered into the record. 
And with that, thank you for being here.

 STATEMENT OF BRETT McGURK, SPECIAL PRESIDENTIAL ENVOY FOR THE 
  GLOBAL COALITION TO COUNTER ISIL, U.S. DEPARTMENT OF STATE, 
                        WASHINGTON, D.C.

    Mr. McGurk. Thank you, Chairman Corker, Ranking Member 
Cardin, members of the committee. I want to thank you for 
inviting me to speak to you today with an update on our global 
campaign to defeat the Islamic State of Iraq in the Levant, or 
ISIL.
    This hearing takes place within weeks of the mass murder 
against innocent Americans in Orlando, Florida. And as Director 
Brennan testified last week, this criminal act was an assault 
on the values of openness and tolerance that define us as a 
free nation. And we join the family and friends in mourning the 
loss of their loved ones and we wish a full and speedy recovery 
to the wounded.
    While there has been no connection between the killer and 
these attacks and ISIL central abroad, the attacks underscore 
the imperative need to defeat ISIL at its core in Iraq and 
Syria and across its global networks.
    I just returned from a visit to Iraq, Jordan, Egypt, and 
Israel.
    In Jordan, as Senator Cardin mentioned, I met with our 
close partner, King Abdullah, just 1 day after an ISIL suicide 
bomber killed seven Jordanian soldiers guarding their border.
    In Egypt, Egyptian forces are engaged in a struggle against 
an ISIL branch in the Sinai, and we have offered our support 
and assistance.
    In Israel, ISIL's propaganda has sought recently to inspire 
attacks to compensate for losses of manpower and territory, and 
we must not allow them to succeed.
    And in Iraq, on the front lines, Iraqi forces with our 
support and assistance are rooting out ISIL's strongholds one 
by one, most recently just this past week in Fallujah where 
ISIL had held a population hostage for over 30 months.
    My statement today will highlight the progress we are 
making against ISIL, but that progress cannot discount the 
threats that remain nor diminish the truly unprecedented nature 
of a challenge that now confronts much of the world.
    We analyze ISIL in three dimensions: the core in Iraq and 
Syria; the networks that feed its strength, foreign fighter 
networks, propaganda networks, and financial networks; and the 
global affiliates. There are eight in all that seek to expand 
its reach with Libya and the Sinai being the most significant.
    Our global campaign plan, bringing together a coalition of 
66 partners from around the world, seeks to defeat ISIL in each 
of these three areas. My written statement notes the indicators 
that we track, many of which are now trending in the right 
direction.
    Foreign fighters are down and more countries than ever 
before sharing information to identify those who are still 
traveling.
    Outside financing has been severed, and internal financing 
has taken a significant hit through painstaking intelligence 
work and precision targeting by military forces in Iraq and 
Syria.
    ISIL's propaganda and messaging is now being challenged 24/
7 through a global network of countries, civil society 
organizations, private companies, and individuals.
    ISIL's leaders are either in hiding or being killed now at 
a rate of one every 3 days, including Abu Bakr al-Baghdadi's 
main deputies, terrorists named Haji Imam and Abu Sayyaf, 
killed by U.S. military forces.
    And ISIL's territory is shrinking, losing nearly 50 percent 
of territory once controlled in Iraq and 20 percent in Syria 
over the last 18 months.
    What makes ISIL different from other terrorist 
organizations is its attempt to hold territory and establish a 
state-like entity in Iraq and Syria, what it proclaims is a 
self-declared and phony caliphate. This notion of a caliphate 
has been a primary driver in recruitment for the tens of 
thousands of foreign fighters that have joined ISIL in Syria 
and Iraq. The territory it controls also allows ISIL to extract 
vast resources and, most importantly for us, plan and launch 
highly sophisticated external attacks. The attacks we have seen 
in Brussels and Paris, for example, we believe stem from ISIL's 
external plotting network, which is based in Raqqa and has sent 
operatives from Syria to Europe through what is known as the 
Manbij Pocket.
    That is why we must take the territory away from ISIL and, 
just as important, stabilize areas after ISIL, as you 
mentioned, Mr. Chairman. I would like to highlight briefly how 
we are doing so, pointing to three areas on the map that I had 
attached to my written testimony.
    Number one on the map is the Manbij Pocket. 3 weeks ago, a 
coalition led by the Manbij Military Council--and these are 
local people seeking to liberate their own territory from 
ISIL--launched an attack across the Euphrates River with the 
mission to liberate the strategic City of Manbij. This force is 
approximately 3,500 strong, and it is made up primarily of 
Arabs, nearly 80 percent Arab, with Kurds and advice and 
assistance being provided by our special forces.
    Putting together this coalition took painstaking work, 
military and diplomatic, but the results thus far are 
promising. The forces liberated 1,000 square kilometers and has 
begun to push into Manbij City neighborhood by neighborhood. As 
they move, they are acquiring a great deal of information on 
the ISIL foreign fighter network. We believe this model, 
recruiting local forces and providing them support to liberate 
their own areas as they model for future operations to isolate 
Raqqa.
    From the other end of the Manbij Pocket, moderate opposite 
groups are beginning to push east against ISIL. This has been 
and will remain a tough fight. ISIL is ordered to fight to the 
death, but now that we are moving on two fronts, ISIL defenses 
are beginning to degrade, and we are hopeful that coalition-
backed forces can take this territory away from ISIL entirely.
    Number five on the map is Mosul. Iraqi and Kurdish 
Peshmerga forces have launched a series of operations 
coordinated from a joint base in Makhmour where we tragically 
lost a U.S. marine last month. These operations, one of which 
just south of Mosul is ongoing at this hour, are setting the 
conditions for the isolation and ultimate liberation of Mosul. 
Mosul will be a significant military challenge but also a 
political, diplomatic, and humanitarian challenge. The planning 
is now underway.
    Last week in Erbil in the Iraqi Kurdistan region, I was 
invited, together with our talented Ambassador Stu Jones, to 
attend a meeting with President Masoud Barzani and Faleh Fayad, 
the Iraqi National Security Advisor, to address the difficult 
political and humanitarian challenges of the Mosul campaign. 
This is one of the more positive meetings I have attended in 
Iraq, with all sides focused on the coming liberation of Mosul 
and what must be done, including the need for diverse 
communities in Iraq to work together. The Iraqi Government 
agreed in this meeting to pay and equip 15,000 local fighters 
from Ninewa Province for the Mosul campaign, representing 
Arabs, Kurds, Shabaks, Christians, and Yazidis. Many of these 
fighters have already been identified and our coalition will 
proudly help train them.
    There is also emerging consensus on the basic stabilization 
arrangements for Mosul after ISIL, building on a model that has 
worked in Tikrit and now underway in Anbar with local leaders 
empowered to restore life to their communities and return the 
population with significant backing and support from our global 
coalition.
    Finally, in Anbar, numbers 7 and 8 on the map, Iraqi 
forces, together with over 20,000 local tribal fighters, have 
over the past few months alone liberated Ramadi, Fallujah, Hit, 
Rutbah and broke a 2-year siege of the City of Haditha. This is 
significant progress, testament to our coalition's training of 
Iraqi forces who have not lost a battle now in over a year and 
key decisions by Prime Minister Abadi to empower the local 
people in Anbar in their own liberation from ISIL.
    This is not to overshadow the serious problems that have 
occurred, including reports of human rights abuses and caring 
for IDPs. But there the Iraqi Government has taken immediate 
measures to address problems, holding people accountable for 
abuse and flowing resources where they are needed.
    There is much work to do, particularly in Fallujah where 
IDPs last week overwhelmed the capacity of local responders. 
Thanks to quick decisions in Baghdad and here in Washington, 
tens of millions of dollars in aid is now flowing to these 
refugee camps, and the U.N. is hopeful to begin returns next 
month. As Senator Cardin mentioned, we will also host a very 
important pledging conference on July 20th here in Washington 
to generate the resources that are needed to care for these 
people.
    Returning people to their homes is a key priority for our 
coalition, and to date in Iraq, 770,000 people have returned to 
areas liberated from ISIL, including 95 percent of the 
population of Tikrit, thanks to the support from the Iraqi 
Government and a stabilization fund from our coalition.
    Accordingly, as we look to accelerate the defeat of ISIL in 
these areas, we are equally focused most importantly on what 
comes after ISIL, as you mentioned, Mr. Chairman, and ensuring 
its defeat is lasting.
    In sum, we have made progress over the last year against 
ISIL, but there is a great deal we have left to do on the 
ground in Iraq and Syria, here at home, and around the world 
against this unprecedented challenge.
    And I am grateful for the opportunity again to appear 
before you, and I am happy to address your questions.
    [Mr. McGurk's prepared statement follows:]


                 Prepared Statement of Brett H. McGurk

                              introduction
    Chairman Corker, Ranking Member Cardin, esteemed members of the 
committee, thank you for providing me the opportunity to update you on 
our global campaign to defeat ISIL.
    The fight against ISIL is an unprecedented challenge. More than 
40,000 foreign fighters have flowed into Syria over the past five 
years, swelling the ranks of violent extremist organizations, the most 
significant of which is ISIL. ISIL is determined to establish a state 
in Iraq and Syria, and instill terror around the world as part of a 
perverse agenda, whereby, according to their own ideology, anyone who 
disagrees with them should die. We have no choice but to defeat ISIL by 
taking away its territory in Iraq and Syria, severing its global 
networks, and suffocating its global affiliates.
    I will describe today the progress we are making in all of these 
areas, but this progress does not discount the significant threat that 
remains, and will remain, for years to come. As an entire government, 
and as a country, we must remain vigilant, committed to a sustainable, 
global, and long-term effort to defeat ISIL, and ensure that other 
violent extremist groups, such as Jabhat al Nusra, al Qaida's official 
affiliate in Syria, cannot rise from its ashes.
    The support of this Committee and the Congress will be essential to 
our success, and it is my honor to appear before you again for an 
update on our campaign.
                       diagnosing the isil threat
    We analyze the ISIL challenge in three dimensions: the core in Iraq 
and Syria (its phony self-proclaimed ``caliphate''); the global 
networks (foreign fighter, financial, and messaging networks); and the 
global affiliates (eight in all, with some far more serious than 
others). Any successful campaign must address all three, and our global 
effort, anchored by a coalition of 66 partners, is designed to do just 
that.
    At the same time, the ISIL core remains its center of gravity, 
allowing ISIL to extract resources, recruit, and plan sophisticated 
external terrorist attacks, as we have seen in Paris and Brussels. 
Thus, we are focused first and foremost on shrinking the core, 
uprooting ISIL from the cities, towns, and villages under its control, 
and destroying its underlying infrastructure, including the human 
capital of its leaders, now being eliminated one-by-one.
                           current assessment
    In July 2014, I testified before this committee as ISIL was 
expanding its territory, threatening Baghdad, and appeared unstoppable. 
The situation today is measurably different. ISIL has not launched a 
significant offensive in over a year; it is losing cities--Tikrit, 
Ramadi, Fallujah, Hit, Shadadi, and soon, Manbij--that were central to 
its rise; and the coalition-backed forces arrayed against it are 
increasingly confident and on offense, with our support.
    I have included an annotated map as an attachment to this 
testimony, which points to our focus areas in the core, and 
demonstrates that we are now able to apply multiple points of pressure 
at once, from Manbij, to Fallujah, to Mosul. ISIL is under more 
pressure than ever before, and we will ensure that it increases 
dramatically over the coming weeks.
    To assess the current situation, I will briefly review eight 
indicators that we track week-to-week to determine where we may need 
more focused efforts, and how the campaign is doing overall. These 
indicators are not exhaustive, but provide a decent top-line overview 
of what remains an extraordinarily complex, dynamic, and fast-moving 
situation on the ground.
1. Morale
    ISIL's morale is plummeting. We have seen credible reports of ISIL 
executing its own fighters on the battlefield. Whereas it once claimed 
to represent the people under its control, it is now executing anyone 
seeking to leave its control. Whereas it once massed and maneuvered at 
will across Iraq and Syria, it can no longer operate in the open, 
train, or communicate. Whereas it once promised lavish pay for 
recruits, and free services in its ``caliphate,'' it is now slashing 
pay, cannot provide services, and is facing internal resistance. We 
know from other sources, as well, that ISIL fighters are panicking on 
the battlefield, foreign recruits are now looking to return home, and 
leaders are struggling to maintain discipline, even despite the threat 
of execution for disobedience.
    This picture from the ground level is also apparent in ISIL's own 
propaganda. Whereas ISIL once promised paradise with staged and sun-
drenched scenes from Raqqa and Mosul, ISIL's own leaders now 
acknowledge they could lose Raqqa and Mosul.
    ISIL spokesman Muhammad al-Adnani, for example, has for years 
described ISIL as a global, historic, expanding movement. His 
catchphrase was ``remain and expand''--describing the territory under 
its control--and he promised ISIL would someday dominate the Middle 
East and ultimately control territory in southern Europe.
    Adnani's latest statement in May was quite different. No longer the 
confident voice of an expanding movement, he acknowledged that ISIL may 
lose its holdings in Iraq, Syria, and Libya, including its strongholds 
of Mosul, Raqqa, and Sirte. We are now working to ensure that his 
prediction comes true, and that Adnani himself--who also leads ISIL's 
external operations arm--is eliminated, and no longer able to spew his 
incitement.
2. Territory
    Territory is not the only indicator that matters, but it 
significant for three reasons:


          First, territory, with millions of people under ISIL control, 
        allows ISIL to extract resources, fund external operations, and 
        embed its violent and genocidal system of control, raping 
        women, murdering LGBT individuals, indoctrinating children, and 
        brutally executing anyone who resists.

          Second, territory allows ISIL to proclaim itself as vanguard 
        of a historic ``caliphate,'' which more than anything else we 
        have seen, drives recruiting from around the world.

          Third, and most important, territory and safe haven allow 
        ISIL to plan future operations against our partners, and our 
        own homeland, such as the suicide attacks in Paris, Brussels, 
        and Ankara, which were planned in Raqqa with the support of 
        logistics nodes in and around Manbij.


    For all of these reasons, we must pressure ISIL in the areas it 
controls, and then take those areas away from ISIL altogether. I have 
included an attached map to guide the briefing on how and where we are 
comprehensively shrinking ISIL's territory.
    The trajectory is positive. ISIL has not had a major battlefield 
victory in over a year. It has lost 47 percent of its territory in 
Iraq, and 20 percent in Syria. More important than percentages, 
however, is the strategic nature of the territory that ISIL has lost: 
nearly the entire border between Syria and Turkey, iconic cities like 
Ramadi, Tikrit, and Fallujah, and all the major transit points between 
Raqqa and Mosul, such as Sinjar, Hawl and Shahdadi (number three and 
four on the attached map), are no longer controlled by ISIL.
    We are now working with local partners to shrink this territory 
further, through a combination of military, political, and security 
measures. I will highlight three areas where active ISIL offensives are 
now underway:


        Manbij Pocket

          First, is the ``Manbij Pocket,'' labeled number one on the 
        map. This has long been the last stretch of territory with 
        access to an international border, allowing foreign fighters to 
        transit in and out of Syria. We commend Turkey for taking 
        measures to tighten the border on the north side, but the 
        threat will not reduce until the territory inside Syria is 
        taken away from ISIL. That is what we are now doing.
          Three weeks ago, the Syrian Democratic Forces--a mix of 
        Syrian Kurds, Arabs, Syriac Christians, and Turkmen--launched a 
        surprise attack from the east, crossing the Euphrates River and 
        then rapidly enveloping Manbij city. As we speak, these 
        fighters are now entering the city limits, under cover of 
        coalition air support. ISIL has threatened to kill civilians 
        leaving the city, and ordered a fight to the death. This has 
        only reaffirmed the importance of this operation, which is on 
        track to succeed.
          This operation against Manbij was planned for months with 
        military and political components. In my visits to Kobani, 
        Erbil, and Sulaimaniya, I met the leaders of the military 
        alliance now leading the offensive. Named the Manbij Military 
        Council, it is 3,500 strong, over 80 percent Arab, mostly from 
        the local area, fighting to free their own hometowns. This is a 
        core premise of our strategy for liberating territory: we want 
        local people, with local knowledge, in the operations to free 
        their communities from ISIL, and stabilize the areas after ISIL 
        is gone.
          It took time to build this inclusive alliance, but the 
        results on the ground, thus far, are promising, and provide a 
        model as we look to isolate Raqqa--likely the next phase of 
        operations after Manbij--with a predominantly Arab and locally-
        grown force.
          The Manbij operation is also proving what we knew going in: 
        that this area was a locus of ISIL's foreign fighter and 
        external plotting network. Of the more than 1,000 ISIL fighters 
        killed in this operation thus far, we believe nearly half are 
        foreign fighters, and we are collecting information along the 
        way on how ISIL's foreign fighter networks are organized and 
        led.
          From the other end of the Manbij pocket, we are working with 
        moderate opposition groups to push east across what is known as 
        the ``Mari Line'' (the extent of ISIL's westward advance). This 
        effort had struggled--ISIL had the area heavily defended--
        before we launched the second front across the Euphrates, which 
        pulled ISIL fighters away and allowed our moderate partners to 
        advance.
          We will continue to resource both offensives, and we are 
        committed to collapsing ISIL within this pocket, an objective 
        that is central to our own national security. We are also 
        working, in coordination with Turkey, to ensure that local 
        mistrust between elements in both offensives can be overcome, 
        and humanitarian aid can flow into these areas as soon as they 
        are liberated.


        Anbar Province

          Second, in Iraq's Anbar province, parts of which had been 
        dominated by ISIL for nearly two years, Iraqi security forces 
        and local tribes have recently liberated Ramadi, Hit, central 
        Fallujah, Rutbah, and broke the siege of Haditha, where Sunni 
        tribes held out heroically against ISIL since the summer of 
        2014. Adnani, the ISIL spokesman, once boasted that Haditha 
        tribes would be wiped off the map, and that fathers would bring 
        their sons to Haditha and say ``this is where the Jughayfa (a 
        leading tribe) once stood.'' In fact, Haditha, like Kobani in 
        Syria, broke the back of ISIL and sparked the momentum we are 
        now seeing across Anbar province.
          This would not have been possible without local support, and 
        we commend the Government of Iraq and Prime Minister Haidar al 
        Abadi for supporting a program of tribal mobilization in Anbar 
        province. There are now 20,000 Sunni tribal fighters working 
        with Iraqi forces to clear and hold territory, in addition to 
        over 14,000 local police across the province. We have been 
        proud to support this program, together with our coalition 
        partners, at two facilities in Anbar, one on Al Asad airbase 
        near Haditha, and one at Taqadum airbase between Ramadi and 
        Fallujah.
          The results are impressive and now must be sustained. We have 
        worked closely with the Government of Iraq to ensure that 
        tribal fighters are embedded into the state security structure, 
        thereby correcting a defect in the Anbar ``awakening'' model 
        from 2007 and 2008, which was hugely successful, but more ad 
        hoc and sustained with U.S. support. The Iraqis have allocated 
        resources to these new fighters, and woven their ongoing 
        support into their national budget, passed by the Iraqi 
        parliament, thereby helping to ensure ongoing and long-term 
        support.\1\
---------------------------------------------------------------------------
    \1\ Article 40 of the 2016 Iraqi Budget Law guarantees that a 
minimum of thirty percent of the ``Popular Mobilization Forces'' must 
be comprised of locals from the provinces where the GOI is fighting 
ISIL. As a result, the GOI has enrolled, and continues to pay and 
equip, over 30,000 Sunni Arab volunteers across Iraq with the number 
likely to grow to 45,000. In this regard, the Iraqi mobilization 
program takes ownership over enlisting local Sunnis into the fight 
against ISIL--a principle we must ensure is sustained long after the 
battles against ISIL are won.
---------------------------------------------------------------------------
          In Fallujah, Iraqi forces broke through the crust of ISIL's 
        defenses last week and on Sunday announced the full liberation 
        of the city. I was in Iraq last week and met with Anbar's 
        governor, and two months ago met with the most prominent 
        Fallujah sheikhs, all of whom pleaded with us to support their 
        city's liberation. We have been proud to do so, not only with 
        military support, but also with an Italian-led training program 
        for local police to secure the city when military operations 
        cease, a $100 million nation-wide coalition-funded 
        stabilization program to help return people to their homes, a 
        $20 million allocation in humanitarian aid to reinforce the UN-
        led effort to manage the flow of Fallujah residents escaping 
        ISIL's brutality, and a comprehensive mine clearance program.
          The Fallujah operation has not been perfect. This is among 
        the toughest places to fight in all of Iraq, and ISIL had 
        controlled the city for over 2.5 years. There were concerning 
        reports of abuses against civilians in the early stages of the 
        operation, and the outflow of people initially overwhelmed the 
        UN and humanitarian organizations. This was a primary focus of 
        my visit to Iraq last week, and while we are encouraged by the 
        immediate response to reports of abuse, and the infusion of 
        resources to support IDPs, more must be done, and we have 
        called on all of our coalition partners to help.
          Stabilizing areas after ISIL can be even more important than 
        clearing areas from ISIL. We are encouraged that, thus far in 
        the campaign, no significant territory liberated by coalition-
        backed forces has been reclaimed by ISIL. Anbar is case-in-
        point: we have focused from the beginning, even when the 
        situation seemed nearly hopeless, on investing local people in 
        their own liberation, pooling coalition resources on 
        stabilization needs, and working with the Government of Iraq to 
        invest local leaders with authority to revitalize populated 
        areas that had been devastated by ISIL.
          We are focused now on reopening the Baghdad-Amman highway 
        through Rutbah and the Trebil crossing (number eight on the 
        attached map). This was a key topic of discussion in my 
        meetings last week with Prime Minister Abadi in Baghdad, and 
        then King Abdullah II in Amman. This highway before ISIL 
        contributed to 20 percent of Jordan's exports and nearly $100 
        million per month in trade; thus, reopening it is a main 
        priority to help economically shore up some of our main allies 
        in the region.
          We are also working to return people to their homes in 
        Ramadi, a process that has been slowed by ISIL's planting booby 
        traps and improvised explosive devices (IEDs) in civilian homes 
        as well as considerable damage to infrastructure in the city as 
        a result of ISIL's occupation. Tragically, of 60,000 initial 
        returnees, nearly 100 were killed due to bombs planted in their 
        homes, a tactic that once again reveals the lie that ISIL 
        claims to represent the Sunnis of Anbar. In reality, ISIL has 
        been focused on killing Sunnis to gain power, but lost the 
        battle, and littered homes with bombs to keep life from 
        returning to places like Ramadi.
          Thanks to coalition contributions, a U.S. company, JANUS, is 
        now overseeing the painstaking work of clearing Ramadi of booby 
        traps, and preparing the ground for stabilization projects. We 
        are aiming to repeat in Ramadi and then in Fallujah what we 
        ultimately saw in Tikrit, where 95 percent of the population 
        has returned to their homes after ISIL. Life there is returning 
        to the streets, with local police in charge, businesses 
        restarting, the university open, and Iraqi-led rebuilding 
        projects underway.


        Ninewa and Mosul 

          All of this sets the stage for what will be the greatest 
        challenge to ISIL as we know it: the liberation of Mosul. For 
        the past six months we have been working with local forces in 
        Iraq and Syria to isolate Mosul from its supply routes in 
        Syria. Operations in Hawl, Shahdadi, and Sinjar, helped cut 
        roadways between Raqqa and Mosul, forcing ISIL leaders onto 
        back roads, where they are easily targeted.
          Last week, Iraqi forces began an operation from the south to 
        cut ISIL's access points and sever the connections with areas 
        ISIL still controls, such as the small towns of Hawija and 
        Sharqat in Kirkuk and Salah Ad Din provinces. This operation is 
        now underway and making considerable progress, enabled by 
        Apache helicopters and other accelerants authorized by the 
        President in April.
          But Mosul is not simply a military challenge. It is a 
        political, economic, diplomatic, and humanitarian challenge 
        that, if not done right, may well outstrip the capacity of the 
        Iraqi government, and the Kurdistan Regional Government, to 
        manage alone. The only way it can succeed is if everybody--
        Iraqi forces, Kurdish Peshmerga, and local fighters from 
        Ninewa--work together as part of a coordinated political-
        military plan.
          I am pleased to report that this is now coming together. Late 
        last year, the Iraqis established a joint headquarters facility 
        at Makhmour, to the southeast of Mosul (near number five on the 
        map). U.S. Marines arrived to support this joint operations 
        center in February, and we tragically lost one of our Marines 
        there in March. These heroic Marines together with our Special 
        Forces advisors have helped Iraqi and Kurdish Peshmerga forces 
        begin to turn the tide south of Mosul, enabling successful 
        operations to seize villages and strategic territory held by 
        ISIL since 2014.
          The military advances have finally enabled the political 
        planning that is essential to getting ISIL out of Mosul and 
        stabilizing Mosul after ISIL. Last week, President of the Iraqi 
        Kurdistan Region, Masoud Barzani, held a historic meeting with 
        Iraq's National Security Advisor, Faleh Fayyad, to discuss all 
        aspects of the Mosul campaign. Barzani and Fayyad invited the 
        U.S. to attend, and I was pleased to represent the United 
        States, together with our terrific ambassador, Stu Jones.
          This meeting began to solidify planning, to include 
        authorization and funding for 15,000 local fighters from Ninewa 
        to take part in the operation--building on the model that has 
        worked in Anbar--as well as the political arrangements after 
        ISIL.
          We are also working through the coalition to ensure resources 
        are ready to support internally displaced persons (IDPs) from 
        Mosul and lay the groundwork for their return and stabilization 
        after ISIL. Next month at the State Department, we will co-host 
        with Canada, Germany, and Japan, a pledging conference to 
        support specific humanitarian and stabilization needs in this 
        regard.
          There is a great deal of work left to do, and we will not put 
        a timeline on the Mosul operation. But with momentum now on our 
        side, it is safer to say that ISIL's days in Mosul--where it 
        proclaimed its phony caliphate to the world--are numbered.


        Southern Syria

          As we squeeze ISIL out of its strongholds in Iraq and Syria, 
        we must remain focused on southern Syria, where it may attempt 
        to fill empty spaces and threaten our partner Jordan. I was in 
        Amman last week, meeting with His Majesty King Abdullah II and 
        his national security team, the day after an ISIL attack killed 
        seven Jordanian soldiers on their border. I expressed our 
        profound condolences for those lost in this attack, and pledged 
        unwavering support for Jordan and its Armed Forces.
          Jordan has done its part in housing nearly 630,000 UN-
        registered refugees and their capacity has reached a limit. 
        Near the site of the attack last week, approximately 60,000 to 
        100,000 Syrians are located in a tent city inside Syria across 
        a berm from the Jordanian border. This is not Jordan's problem 
        alone; it is an international problem, and one the 
        international community must work with Jordan urgently to 
        resolve.
          We are supporting moderate opposition fighters in this region 
        of southern Syria (number nine on the map) to pressure ISIL and 
        help the defense in-depth of Jordan. These brave fighters have 
        suffered ISIL vehicle bomb attacks, and last week, Russian jets 
        bombed the camp, claiming not to know who was there. We have 
        found Russian explanations of this attack to lack merit, and 
        while there is now a ``no strike'' box over the area, the 
        episode once again called into question Russian intentions in 
        Syria.
          Finally, we are working to root out an ISIL presence in the 
        SW tri-border region of Syria adjacent to Jordan and the Golan 
        Heights (number ten on the map). ISIL's media statements in 
        recent months, as they suffer losses on the battlefield, have 
        focused on Israel as a target, clearly hoping to generate 
        international headlines to compensate for its defeats. We must 
        not allow this to happen. Last week, I stood at the border, 
        where ISIL positions and training facilities were visible in 
        the distance.
          The State Department earlier this month designated the ISIL 
        affiliate in this area, formally known as Yarmouk Martyrs 
        Brigade, as a specially designated global terrorist entity, and 
        we are now working with moderate opposition groups to free 
        Syrians under its grip from their barbaric rule.
          We cannot permit ISIL to re-establish a presence anywhere in 
        Syria, let alone on the borders of our closest friends.

3. Combat-Ready Fighters
    ISIL's access to fighters has steadily diminished, now at the 
lowest point we have seen since the summer of 2014. We currently 
estimate that ISIL fields 18-22,000 overall fighters in Iraq and Syria, 
the lowest assessed range since we began conducting rigorous reviews of 
its manpower. This is down from a high-end estimate of 33,000 ISIL 
fighters in 2014. We are also seeing significant reduction in the flow 
of foreign fighters entering Syria and Iraq each month, and we are 
working through our coalition to identify and ensure that ISIL 
affiliated fighters cannot travel across borders. In short, we are 
making it harder for them to travel into Syria, and once there, making 
sure they can never leave.
    This is painstaking work, requiring coordination across borders, 
and between executive and legislative branches. In September 2014, the 
President chaired a UN Security Council meeting to adopt the Chapter 
VII Resolution 2178, which calls on all states to take measures to 
deter travel of foreign fighters. Since then, our engagement with 
Middle Eastern and European partners has achieved results through 
increased information-sharing, better border security, improved 
counter-terrorism laws, counter-messaging, and improved cooperation 
between law enforcement and intelligence services.
    Since the adoption of UNSCR 2178, more than 40 at risk countries 
have enacted laws or amendments to enhance obstacles for foreign 
terrorist fighters traveling into Iraq and Syria. At least 38 countries 
have reported arresting foreign terrorist fighters or aspirants, and 30 
countries have successfully prosecuted foreign terrorist fighters, 
including the United States. In the United States, my colleagues at 
Department of Homeland Security and the FBI assess that over 250 U.S. 
citizens have joined or tried to join ISIL.
    We must remain vigilant, here at home, and around the world. The 
United States now has information-sharing agreements with 55 
international partners to assist efforts to identify, track, and deter 
the travel of suspected terrorists. Equally important, 58 countries, 
plus the United Nations, now contribute foreign fighter profiles to 
INTERPOL, and there has been a 500-percent increase in suspected 
foreign fighter identities in the INTERPOL database. Through our global 
coalition, we are discussing with INTERPOL how to appropriately 
incorporate foreign fighter data from the battlefield, ensuring that 
terrorists who manage to leave Syria can be identified in a routine 
traffic stop or at border entry, or those who die in Syria can be 
identified to map domestic contacts.
    In addition, The European Union parliament in April issued an EU-
wide directive to expand the Passenger Name Record (PNR) database, 
which would require more systematic collection, use, and retention of 
data on international airline passengers. This is an important step to 
ensure the interoperability of data systems across the EU so foreign 
fighters and terrorists can be tracked in real time, allowing law 
enforcement, intelligence agencies, and border security to foil ISIL 
attacks.
4. Access to Revenue
    ISIL's revenues are overwhelmingly generated from the territory it 
controls, primarily from oil extraction and taxation/extortion of local 
citizens. This picture was not clear when we began the campaign in 
2014, but through raids by our Special Operators inside Syria, and 
incredible work by our unsung intelligence analysts, the U.S. 
Government has been able to map ISIL's resource stream, and then, 
systematically, destroy it.
    Under Operation Tidal Wave II--which aims to degrade and destroy 
ISIL's energy assets--the Coalition has carried out precision strikes 
against oil fields, infrastructure, oil-tanker trucks, banks, and cash 
storage sites that sustain ISIL's war effort. This phase of the 
campaign was preceded by many months of planning from across the U.S. 
Government. We sometimes hear that we just need to ``bomb the oil 
fields'' as if there is a simple military solution to this challenge; 
in fact, the military effort is the sharp end of the spear, and its 
success depends on hard-earned intelligence, careful analysis, and 
target development.
    Because we took a systematic approach to this problem, the 
operations against ISIL's economic infrastructure have been quite 
successful to date. ISIL was forced to halve fighter salaries in Raqqa 
and is detaining its own senior officials for trying to steal cash and 
gold. This has created a virtuous cycle: terrorist fighters are not 
paid, their supplies run low, they have less will to fight, and they 
are more easily defeated. Since the strikes against cash storage sites 
in Mosul, we have seen fighters thin out, with fewer checkpoints, and 
increasing reports of ISIL leaders executing their own rank-and-file 
for poor discipline.
    This pressure will only increase. Just a couple of weeks ago 
outside Mosul, coalition strikes destroyed 600 oil transport trucks. 
Since these strikes began, trucks no longer line up at oil fields, and 
truck drivers are demanding higher pay to take on the risk of 
transporting ISIL oil, thereby increasing costs, reducing revenues, and 
making it even more difficult for ISIL to generate revenue from, or to 
use, energy resources.
    At the same time, we continue to take out ISIL's cash storage 
sites, destroying their ability to pay fighters and sustain operations. 
In total, we have conducted more than 120 strikes on ISIL cash centers 
and oil infrastructure, and this number will continue to rise. We have 
also worked closely with Coalition partners in the region, particularly 
the Government of Iraq, to cut off ISIL's access to the international 
financial system and to disrupt its ability to move and store funds.
    ISIL is an adaptive organization, however, and it is working to 
adapt to this pressure. It is our mission to adapt faster than they do, 
and continue the relentless pressure across the breadth and width of 
their operations. We are currently undergoing a careful assessment of 
ISIL's adaptation to our campaign, and as they adapt, we will respond 
aggressively.
5. Access to Borders
    As noted above, ISIL now controls only a 98-kilometer strip of an 
international border in Syria, and it is shrinking. The loss of access 
to this border will deprive ISIL of its only route for material and 
foreign fighters, as well as degrade its ability to plan and launch 
external attacks. We know that many of the Paris attackers, for 
example, entered Turkey from this strip of border, and later flowed 
northward to Europe. This is unacceptable, and we must make every 
effort to shut it down these areas entirely to ISIL.
    We are also supporting our NATO-ally Turkey on their side of the 
border to enhance border defense, utilize technology for monitoring, 
and implement effective systems to eliminate the flow of foreign 
fighters. It is impossible to seal the border entirely, but we have 
seen a marked increase in Turkish defenses, and ISIL propaganda has 
even appealed to its recruits not to travel into Syria, but instead, 
head to Libya.
    They will find an inhospitable welcome in Libya. The Libyans are 
rejecting ISIL en masse, and what Adnani promised would be another 
citadel of his self-proclaimed caliphate is facing resistance from GNA-
aligned Libyan forces and is now an isolated and shrinking piece of one 
city on the central coast, Sirte. In the last two weeks alone, multiple 
offensives by forces aligned with the Libyan Government of National 
Accord (GNA) advanced rapidly towards Sirte and now have the city 
surrounded. These fighters have suffered casualties, but they have kept 
moving forward. If the GNA and Prime Minister Sarraj request support 
from the international community, and the counter-ISIL coalition, it 
will find many willing partners. The international community and our 
global coalition have united in support of the GNA.
6. Capable and Confident Leadership
    Two years ago, around this time, I was in Iraq when Abu Bakr al-
Baghdadi pronounced the establishment of a ``caliphate'' from the 
largest mosque in Mosul. It was Ramadan, and the announcement, despite 
being denounced by thousands of Muslim leaders and scholars from around 
the world, spiked ISIL recruiting and the confidence of its adherents 
as a historic movement on the march. Baghdadi and other leaders 
throughout the summer of 2014 were appearing in the open, speaking, and 
recruiting.
    I just returned from another trip to Iraq. It is Ramadan once 
again. Yet, we have not heard from the so-called ``Caliph'' in more 
than six months. This Ramadan is being celebrated not by Baghdadi, but 
by millions of Iraqis taking the streets each night as ISIL and its 
leaders have retreated to the shadows.
    We have no evidence that Baghdadi is dead, but many of his deputies 
are. We have killed more than 100 mid-to-senior level ISIL leaders in 
the past few months alone, and the key deputies for Baghdadi in 2014, 
terrorists known as Abu Sayaf and Hajji Iman, have been killed by U.S. 
military forces. Baghdadi is not far behind.
    In short, whereas ISIL once had leaders exhorting fighters in the 
open, making public addresses, and mocking the civilized world, its 
leaders are now dead, or in hiding, and issuing written orders for 
inexperienced fighters to launch desperate missions against the 
increasingly confident and capable forces arrayed against them. We will 
work to make sure these trends continue.
7. Media
    As ISIL loses leaders, territory, and resources, its message 
appears to be having less resonance online. We are countering its 
message 24/7, with coalition efforts led by UK, UAE, and Malaysia, 
providing counter-content with localized focus for different regions of 
the world. I have visited the Sawab (``Right Path'') Center in UAE, 
which is led by smart and energetic young people determined to defeat 
ISIL in cyberspace, and they are succeeding, with innovative media 
campaigns focused on ISIL defectors, and the truth behind what ISIL 
promises versus what it delivers on the ground, especially for women.
    In the United States, the Global Engagement Center (GEC) 
coordinates, integrates, and synchronizes government-wide 
communications activities to counter ISIL's messaging. The GEC also 
help provide assistance with content development platforms, and 
amplifying effective voices against the perverse ISIL narrative.
    Twitter recently announced that it has eliminated nearly 125,000 
ISIL-related or ISIL-affiliated ``handles,'' and that number is 
growing. Facebook and YouTube are similarly removing ISIL-related 
content from their platforms. Within the coalition, we have widely 
publicized how anyone can report ISIL content on-line, so that 
platforms can remove it if the content violates a platform's terms of 
service, which it often does.
    These efforts are having an impact. Pro-ISIL content is down and 
anti-ISIL content is up. Whereas ISIL two years ago had nearly free 
rein in cyberspace, today, there are reportedly six people opposing 
ISIL's message online for each person supporting it. We need these 
numbers to increase, and recognize that the most effective voices are 
not governments, but individuals, with their own first-hand accounts of 
the horror under ISIL rule. As these stories increase, ISIL's message 
is on defense, and it is our job to help keep it that way.
    The Muslim world is also fighting the ideological battle. Shortly 
after Baghdadi declared himself ``caliph,'' 120 Muslim scholars from 
around the world released an open letter challenging and denouncing 
ISIL's philosophy. The scholars took ISIL's false claims one-by-one, 
using evidence directly from the Quran to illustrate how Baghdadi's 
whims run counter to the teachings of Islam. More and more Muslims are 
taking to the Internet and public spaces to counter ISIL's brand of 
hate and take back their faith.
8. Global Branches
    From its core in Iraq and Syria, ISIL has declared eight global 
branches: Libya, Saudi Arabia, Yemen, Sinai, Nigeria, Algeria, the 
Caucuses, and Afghanistan-Pakistan. We have carefully studied the 
situation in all of these locations, and in most, a pre-existing 
terrorist organization, such as Boko Haram, chose to wave the black 
flag of ISIL. In other cases, such as Yemen, or Afghanistan, small ISIL 
affiliates have broken off from larger al Qaida movements. We have been 
actively engaged in these regions, against existing threats, such as 
AQAP in Yemen, and we should not alter course just because a terrorist 
group chooses to fly an ISIL flag. Changing flags does not 
fundamentally change the nature of what--in most cases--was a pre-
existing problem, or threat.
    Where, however, we see threats emerge anew, or resources directed 
from the core in Syria to a global branch, it is a concern and we must 
determine how to act, and act effectively. Libya has been the best 
example, with ISIL capitalizing on a security vacuum and sending some 
of its most experienced operators to establish ISIL-Libya. One was 
named Abu Nabil, a Baghdadi acolyte and experienced terrorist. When we 
see a leader like this emigrating from the ISIL core to a global 
branch, we act. Accordingly, Nabil is now dead, targeted with precision 
in a U.S. airstrike. We have also taken military action to degrade the 
ISIL network in Libya responsible for launching external attacks in 
Tunisia.
    To root out ISIL-Libya, however, we are building a robust 
partnership with the Libyan Government of National Accord (GNA). ISIL's 
growth in Libya appears to have plateaued in its recruitment of 5,000-
8,000 fighters, most from within Africa. Its recruiting drive for 
European fighters has not succeeded, with numbers in the low hundreds; 
and for those who made their way to Libya, they may soon lose their 
stronghold in Sirte.
    ISIL-Libya is now under significant pressure. It has been largely 
expelled from Derna and we have increased engagement with our North 
African partners to further mitigate the threat, while supporting the 
UN-led political process in support of the GNA.
    Just a few months ago there was no government on the ground. Today, 
the GNA is on the ground in Tripoli, and has aligned forces east and 
west of Sirte, which are making gains, isolating the city, and forcing 
many ISIL terrorists to flee. These GNA-aligned forces have 
demonstrated they are willing and able to fight ISIL, and we are 
working with Prime Minister Sarraj on an arms embargo exemption request 
to further support the GNA and our local partners on the ground.
    The second branch of concern is Sinai, which we assess was 
responsible for destroying the civilian Metrojet airliner nine months 
ago, killing 224 people. I was in Cairo last week discussing the Sinai 
situation, on the heels of visits by Chairman Dunford and CENTCOM 
commander General Votel. We are determined to support our Egyptian 
partners in degrading and ultimately defeating the ISIL branch in 
Sinai.
    The Sinai branch is comprised from a pre-existing violent extremist 
group, Ansar Bayt al-Maqdis. We estimate its manpower to be from 
several hundred up to 1,000, with some estimates far less than that, 
and some slightly more. The current situation in Sinai is a low-grade 
conflict combining links to the ISIL core with violent extremist 
ideology drawn from Salafist beliefs and long-standing local 
grievances. The Egyptian Army has increased combat operations and 
closed almost all the tunnels that facilitated arms smuggling along the 
Gaza border.
    The United States strongly supports Egypt's efforts to combat ISIL-
Sinai, a message I conveyed in Cairo last week. We are providing Apache 
helicopters, MRAPs, counter-IED training and border security programs, 
and have intensified military-to-military discussions on how we can 
help Egypt adopt the counter-insurgency doctrine and tactics it needs 
to deal ISIL-Sinai a lasting and permanent defeat.
    The Sinai security situation also impacts the Multi-National Force 
and Observers (MFO) mission. The U.S. is firmly committed to supporting 
the Treaty of Peace and MFO operations. Accordingly, we support the 
MFO's decisions to both modernize operations and implement force 
reductions that mitigate risk and enable continuation of its mission.
    Beyond the Sinai and Libya branches, we continue to monitor ISIL's 
attempts to establish additional ones, such as in the Philippines, 
Bangladesh and Somalia. We are engaging partners and host nations in a 
whole-of-government approach to ensure that ISIL cannot grow roots in 
any of these locations.
    Accordingly, while we focus on the core in Iraq and Syria, and 
cannot be distracted every time a pre-existing terror group waves a 
black flag, we are working to enhance the capacity of local partners to 
identify and eliminate emerging threats before they can materialize. 
This is part of a comprehensive and globally integrated campaign plan 
to contest ISIL in all dimensions, and stay attuned and ahead of 
emerging threats.
Looking Ahead
    Defeating ISIL in Syria and Iraq (measured by its inability to 
control significant territory and threaten the viability of the Iraqi 
state), suffocating its global affiliates, and drying up its global 
networks, are all achievable objectives. Our strategy is making 
progress. However, ISIL as a threat, its existence as a cellular 
terrorist organization, or an appealing banner for disturbed 
individuals searching for meaning in their lives, will be with us for 
many years.
    To further mitigate the threat, we are focused as much on what 
comes after ISIL, as we are on defeating ISIL. In Iraq, the coalition 
is providing resources to alleviate human suffering and help return 
people to their homes (over 725,000 to date), strengthen inclusive 
local governance, address macro-economic risks, and stabilize local 
communities through an innovative funding mechanism that is delivering 
results. Ultimately, however, long-term stability in Iraq rests on the 
Iraqis, and the center of all communities, Sunni, Shia, and Kurd, must 
hold against extremes working to pull the country--and their 
communities--apart. That center is stronger now than it has been in two 
years, but the situation remains fragile and volatile. U.S. engagement 
remains vital.
    It will also be important to support the Government of Iraq in 
reforming security institutions after ISIL, managing the de-
mobilization of volunteer forces, and ensuring that the state has full 
control over armed groups, which must operate under an agreed legal 
framework.
    In Syria, as ISIL is losing territory in the east, its terrorist 
rival--Jabhat al-Nusra--is gaining ground in the west, putting down 
roots in Idlib province along the Turkish border. Nusra is establishing 
schools and training camps, recruiting from abroad, launching major 
military operations, and enjoying a sophisticated on-line presence, all 
the while providing safe haven for some of al Qaida's most experienced 
terrorists. With direct ties to Ayman al Zawahiri, Osama Bin Laden's 
successor, Nusra is now al Qaida largest formal affiliate in history.
    This is a serious concern, and where we see Nusra planning external 
attacks, we will not hesitate to act. To end Nusra as a threat, 
however, we must find a mechanism to de-escalate and end the Syrian 
civil war, thereby allowing the moderate opposition to take charge of 
its own territory, without threat of Asad's barrel bombs overhead, or 
terrorists down the street. As the war goes on, the opposition is 
increasingly interwoven with Nusra, which provides pretext for the 
criminal Asad regime to target anyone it wants, on grounds that it is 
targeting terrorists. Nobody is fooled by this argument.
    At bottom, the Syrian civil war remains an incubator for violent 
extremism, and to defeat the threats against our homeland over the 
long-term, we must find a diplomatic mechanism to enforce a nationwide 
cessation of hostilities, thereby isolating Nusra from the opposition, 
concentrating efforts on ISIL, ending bombardments by the Asad regime, 
and, ultimately, facilitating the political transition called for in 
UNSCR 2254 and the International Syria Support Group.
Conclusion
    It is once again an honor to appear before this Committee. Our 
global campaign against ISIL is making progress and will accelerate 
over the coming weeks. This does not, however, mean the threat of 
terrorism will end. It will require constant collaboration with 
Congress to stay ahead of this most dynamic and complex challenge. I 
look forward to your questions.


    The Chairman. Thank you very much.
    I am going to reserve my time for interjections and turn to 
the ranking member.
    Senator Cardin. Once again, thank you for your testimony.
    I want to follow up on the point that you raised, the 
chairman raised, I raised, and that is what happens after we 
take territory. We have had military success in the past. Can 
we hold that military success? Are we able to develop 
functioning governments that can protect all of the 
communities?
    In Iraq, as we are starting to get more territory, Fallujah 
having fallen, the Sunni civilian population is justifiably 
concerned as to their safety as it relates to the Shia militia. 
What steps are we taking to protect the civilian population in 
these areas that we have been able to militarily reclaim?
    Mr. McGurk. So, Senator, thank you.
    It is a primary focus of ours from day one. And on a 
positive side, so far in Iraq, no areas that have been retaken 
from ISIL, that have been liberated from ISIL has ISIL been 
able to retake. And that is fairly significant given how 
difficult the situation is in Iraq.
    What we have done from day one--this really goes back to 
the fall of 2014. You know, we are not in the business of 
reconstructing Iraq, of repeating mistakes that we made in the 
past. We have tried to revolutionize how we do this. We have a 
Prime Minister Abadi who is a real partner in Baghdad who 
believes in decentralizing power as much as possible and 
empowering local people.
    So the fundamental example of this was in Tikrit. Tikrit is 
a primarily Sunni city, an iconic Sunni city in the heart of a 
mixed province of Salah ad-Din Province. It was entirely 
depopulated by ISIL in the summer of 2014. It was a site of 
mass atrocities, thousands of people killed in mass killings.
    Once it was liberated, through the coalition, we were able 
to flood resources to Tikrit through a stabilization fund that 
we established through the coalition. And this stabilization 
fund is focused on the necessities of getting people back to 
their homes. And returning people to their homes--it is 
important to recognize we looked at this historically in 
conflicts like this, one of the hardest things to do in the 
world. It can take years, if ever. And in Tikrit, by empowering 
the governor, by empowering the local leaders, by making sure 
the resources are there, the number of returnees eventually 
reaches a tipping point, and now we have almost the entire city 
back in the streets of Tikrit. There are local people, 
Tikritis, guarding the streets.
    Senator Cardin. How do you deal with the Shia militia? How 
does the Abadi government deal----
    Mr. McGurk. First of all, Shia militias have to act under 
the control of the Iraqi Government, the Iraqi state. That is a 
fundamental principle of the Government of Iraq. We think most 
of these popular mobilization forces do operate under the 
control of the Iraqi state, but about 15 to 20 percent of them 
actually do not and those groups are a fundamental problem.
    The number one thing we do is try to make sure they stay 
out of Sunni-populated areas where they can cause real 
problems. So in Tikrit, for example, Shia militias are not 
inside the streets of Tikrit. That is one thing that gave the 
population the confidence to return.
    We have a principle when we support Iraqi forces in the 
military campaign, we will only support forces on the ground 
operating strictly under Iraqi command and control. That means 
going from the ground up an Iraqi chain of command into a joint 
operations center where we are working with Iraqi commanders. 
If there is a unit that is not operating under that structure, 
it does not get any support from us.
    Senator Cardin. Are you confident Fallujah will be able to 
maintain the safety of Sunni civilians?
    Mr. McGurk. So Fallujah, of course, just happened. They 
just completed the liberation of the last neighborhood over the 
weekend. We have about 80,000 displaced people. I am meeting 
with the head of one of the U.N. programs later this week. They 
are hopeful that all of these IDPs will be under shelter by the 
middle of this week and to begin returns next month.
    What is also somewhat encouraging about Fallujah is that 
the destruction in the city looks to be fairly minimal compared 
to other operations. So we are hopeful that we can return the 
people of Fallujah to their streets as soon as possible. The 
government can lead that process.
    And of course, the Shia militia groups that operate outside 
the rule of law have to be outside the city, otherwise people 
will not return. So absolutely. And we have a plan with local 
Fallujah police. Policemen from Fallujah have been trained for 
really the last year waiting to go back to guard their streets. 
That is what we did in Tikrit, and that is what we are going to 
try in Fallujah.
    Senator Cardin. I want to ask one more question on this 
round, if I might, and that is the legitimacy of ISIL. They 
were defining it by territory. They are now losing territory. 
Will they be defining it through international terrorism by the 
sensational covert attacks that we see all too often? Can we 
expect that that may accelerate? And what can we do to counter 
that if that appears to be their game plan on legitimacy?
    Mr. McGurk. So, Senator, ISIL has always talked about 
external attacks. I think I testified even back in late 2013 
talking about what Baghdadi was saying, even about attacking--
--
    Senator Cardin. But as they start to lose territory, is it 
likely that they may accelerate that part of their campaign?
    Mr. McGurk. So their core banner in their propaganda has 
been the caliphate, retaining and expanding the caliphate. And 
in their last main statement by their spokesman, as I mentioned 
in my written testimony, is a very different message. He 
actually says we might lose all of our territory. We might lose 
Raqqa, Sirte, and Mosul. But we are still going to be around. 
Still join us. And they are trying to inspire these lone wolf 
attacks around the world. And this is what Director Brennan 
testified to last week. This is extraordinarily difficult to 
stop.
    We have to remain vigilant. That is why we have a global 
coalition not just for Iraq and Syria, but to make sure that we 
are attacking the foreign fighter networks and sharing 
information, working with INTERPOL so that as these people try 
to travel, they can be picked up. And we are doing better at 
that now, but we have a ways to go, and we cannot let up 
because ISIL split from--it is Al Qaeda in Iraq. They split in 
two directions: one, Baghdadi establishing a caliphate, a 
state-like entity, and the other branch, Al Nusra, which is now 
Al Qaeda in Syria, which does not really have that notion of 
establishing a caliphate. But they are both Al Qaeda. They both 
want to kill Westerners. They both want to kill anyone that 
does not agree with them, and ISIL will continue to try to 
inspire external attacks.
    One thing we are doing, though, on the ground, we are not 
just taking back territory. As we take back important 
territory, we are collecting substantial amounts of information 
about the foreign fighter network, about how it is put 
together, who leads it, and that helps us really root it out 
not only in Iraq and Syria but in the branches and little 
networks that exist in France and other places.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Johnson?
    Senator Johnson. Mr. McGurk, thanks for coming here.
    The analogy I have been using is that of a beehive. If you 
have one in your back yard, you can go out there and poke it 
with a stick and do damage to it, but you disturb the bees and 
they actually become more dangerous.
    You have, obviously, been reporting out a fair amount of 
progress. We have been making some gains. We are getting 
information. We are taking back territory. And yet, the CIA 
Director did testify before the Senate Intelligence Committee 
and said that our efforts have not reduced their terrorism 
capability and global reach and they remain a formidable, 
resilient, and largely cohesive enemy.
    Do you disagree with that assessment?
    Mr. McGurk. I agree with the Director, of course, that this 
is something--and I think you see in my testimony I am the last 
one working on this most complex issue every single day to 
diminish this significant threat.
    You know, let me just put a number on it. 40,000 foreign 
fighters have traveled into Iraq and Syria over the last 4 or 5 
years indoctrinated with this jihadi ideology. That is almost 
twice as many, from the numbers we have seen, that went to 
Afghanistan in the 1980s, and we know where that eventually led 
to. So this is something we have not seen before, and you add 
to it social media and the speed of international travel, 
everything now, it is an unprecedented challenge and is going 
to be with us for years.
    Senator Johnson. So again, do you agree with CIA Director 
Brennan's assessment that we have not reduced their capability? 
They remain a largely formidable, resilient, and cohesive 
enemy.
    Mr. McGurk. Well, it is not the entity certainly that it 
was 18 months ago. You know, the attacks like Brussels and 
Paris are attacks that they planned from their safe havens and 
sanctuary. So those attacks we believe were organized in Raqqa, 
planned. Those sophisticated types of attacks--it is harder for 
them to do when you are pressuring them and pressuring their 
territory. The lone wolf attacks are the types of things that 
are very difficult to stop.
    Senator Johnson. But my point being is until we actually 
defeat them--and again, we can nibble around the edges. We can 
make some progress. We can push them out of Iraq, but they 
remain in Syria. I mean, I have yet to hear out of this 
administration a game plan for actually defeating them. I mean, 
I hear the game plan for making progress, but actually 
defeating them--and that is the point I am trying to make. If 
we do not defeat them, if we do not deny them the territory, if 
we do not deny them the caliphate, if we do not take away those 
safe havens--they are incredibly sophisticated. They are 
inspiring the lone wolf type of activity we have seen in San 
Bernardino, now in Orlando tragically.
    There was, by the way, a foiled plot against the Masonic 
Temple in Milwaukee, Wisconsin, also probably ISIS-inspired.
    So we have to defeat them. Where is the game plan for that?
    Mr. McGurk. No, Senator. Our strategy is defeat. It is a 3-
year campaign plan to degrade and defeat. And to defeat, you do 
have to take away their territory. So in Iraq, it has been city 
by city. In Mosul--I can go through in some detail, but in 
Mosul, we have been focused on isolating their key population 
nodes, cutting off their connections between Raqqa and Mosul. 
The operation in Manbij is about isolating Raqqa, and after 
Manbij, we will move on Raqqa.
    Senator Johnson. When did the 3-year clock start? Because 
President Obama declared our goal of degrading and ultimately 
defeating ISIS 22 months ago. We are almost 2 years into it. Or 
when did the clock start ticking on our 3-year plan?
    Mr. McGurk. We put the campaign together in September of 
2014. It took time to generate the local forces to be able to 
take on what at the time was the most formidable military force 
on the ground.
    Senator Johnson. Do you think then that we will have ISIS 
defeated, in other words, deny them the territory, deny them 
the safe havens even in Syria within another--basically you are 
saying about 14 months then if it is a 3-year game plan.
    Mr. McGurk. I wanted to go a lot faster than that. One of 
the reasons I was in Iraq last week was to focus on the Mosul 
campaign. And we will not put a timeline on the Mosul campaign, 
but we would like to do it as soon as possible.
    One reason we are moving on Manbij right now is to set the 
conditions in place to move on Raqqa. And the force that has to 
move on Raqqa has to be a predominantly Arab force. That is why 
we have increased our special forces inside Syria to train and 
equip that force. And after Manbij, the plan is Raqqa. So we 
are moving at a tempo that I believe will lead to the 
ultimate----
    Senator Johnson. Within 14 months, if it is a 3-year game 
plan? I mean, we are not going to defeat them within 14 months. 
Are we?
    Mr. McGurk. Well, I wanted to go a lot faster than that.
    Senator Johnson. That is my point. We are not doing this 
fast enough. Are we? We are poking the hive with the stick. It 
becomes more dangerous. We have not reduced their terrorism 
capability or their global reach. When are we going to have a 
game plan from this administration to actually accomplish the 
goal of defeating them? It is not going to happen in the 3-year 
time frame. Is it going to take--what is it going to take?
    Mr. McGurk. Well, I understand your question. We want to 
speed up their defeat in Mosul. So one thing we are doing--now, 
this is on the side. I mentioned it is not just the military, 
but we are using Apache helicopters. We are using forward 
advisors to begin this operation towards Mosul. There is an 
operation going right now south of Mosul that is critical to 
isolating ISIL inside Mosul. The Manbij operation is ongoing 
right now. It is hard fighting. Once that is done, that sets 
the conditions for Raqqa. So it is a step-by-step process to 
get to Raqqa and Mosul. We are beginning to totally isolate 
their presence in Raqqa and Mosul, and I believe we are setting 
the conditions in place to get them out of both of those 
cities.
    Senator Johnson. Listen, I appreciate your efforts, but I 
agree with you. We are not moving anywhere to close to fast 
enough.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair, and thank you, Mr. 
McGurk.
    I am not going to repeat lines of questioning that I have 
engaged in in earlier hearings.
    I share some of Senator Johnson's critique and disagree 
with him on some points. But the main disagreement is that we 
are not moving fast enough. I think Congress has been in a 
position where we have wanted to criticize the administration, 
but we are 22 months into a war that we have not even really 
debated and voted on here. I just compare this with the level 
of detail that we just undertook to try to implement very 
piecemeal, narrow reforms in the Department of Defense in the 
NDAA bill. The amount of discussion in this body about an 
ongoing war where 17 people have been killed and others have 
been injured stuns me. But let us just pass that by, because I 
am well on the record about it, and get into some particulars.
    I do congratulate our troops and the coalition for the 
effort that they made to succeed on the battlefield to shrink 
the territory that ISIL holds in Iraq and Syria. And I think 
that has been very notable, and I expect that to continue.
    But let us talk about three areas beyond the original 
battlefield where I have concerns. Let us start with Libya.
    ISIL in Libya has been losing its center of gravity in 
Sirte. That has been a positive. But where does the coalition 
believe that the next front will open up in North Africa? There 
are about 5,000 ISIL fighters in Libya. Where are they now 
located? What is being done to target them? Because I think 
North Africa, both because of dangers in Africa but proximity 
to Europe, the ISIL presence there is of significant concern.
    Mr. McGurk. That is a very good question, Senator.
    One reason I was in Cairo last week was to discuss the 
whole North Africa region, including of course Libya.
    And Libya is a good example because it just highlights how 
complicated this is. You know, most foreign fighters that have 
joined ISIL have come out of Tunisia, what is kind of seen as 
the bright spot of the Arab Spring, and it shows that what is 
indoctrinating these young people--some of it is sectarianism 
that exists in Iraq and Syria, but some of it is something 
else. We have 6,000 Tunisians, many of whom have gone to Libya. 
And this is a real problem. Tunisia is a close partner in the 
coalition. We are working closely with them, and we are working 
with Egypt on the situation in Libya. But also the bright spot 
in Libya is that the Libyan people are rejecting the presence 
of Da'esh.
    So we were concerned about 90 days ago or so when we were 
really looking at the Libya situation of this kind of hockey 
stick-like growth of the acceleration of ISIL in Libya. Are 
they matching what they tried to do in Iraq and Syria? And it 
turns out at least that has not been the case. They have kind 
of plateaued at about 5,000-6,000 fighters. The numbers vary, 
but that is our assessment. They are isolated now in Sirte.
    And the Mistratan forces and other forces aligned with the 
new Government of National Accord have made real progress, more 
progress than we had anticipated. And so now we are looking at 
how do we accelerate that progress that is being made.
    So I am fairly confident now that we have a strategy in 
place in Libya that can at least begin to really degrade that 
ISIL presence. Libya has a host of other problems. But the 
concern we had of this accelerating growth of ISIL in Libya--it 
is something that appears to have been mitigated, but we have 
to keep at it.
    Senator Kaine. I am going to move to the Philippines. There 
has been a recent announcement by ISIL of an aggressive 
recruitment effort in the Philippines, working under the 
leadership there of Abu Abdullah. And there has even been 
recruiting efforts in countries like Malaysia to get foreign 
fighters to go not to Syria and Iraq but to go to the 
Philippines. Talk a little bit about worries about ISIL efforts 
in Asia, the Philippines, and other nations in Southeast Asia.
    Mr. McGurk. So another great question.
    I was, a year or so ago, in Singapore and Malaysia talking 
about the growth in Southeast Asia. Many of these are 
preexisting terrorist groups that then fly the flag of ISIL.
    Senator Kaine. Just like Boko Haram.
    Mr. McGurk. And the question we asked is what is the common 
denominator here all around the world for why these groups are 
flying the flag of ISIL. And it is this notion of this 
caliphate. We hear this everywhere, this notion of a caliphate, 
this kind of magnet, this historic movement, which is one 
reason why shrinking the territory is so important even to 
drying up their global affiliates in a place like Southeast 
Asia.
    So I saw the announcement in the Philippines recently. 
Again, I think--and I mentioned this in my written testimony--
we cannot get too distracted by every time a preexisting 
terrorist group flies the flag of ISIL because we are already 
dealing with those problems in a whole variety of ways. It is 
where we see, as we saw in Libya, ISIL central in Raqqa sending 
some of its best leaders into Libya to establish a branch. That 
was a terrorist named Abu Nabil. We targeted him and killed 
him. In Sinai, we have seen money and leaders try to transfer 
to Sinai. That is where we really get concerned. We have not 
seen that in Southeast Asia.
    So we have to work with our partners throughout the world 
but particularly in Southeast Asia to make sure that these 
problems remain contained. But we are not seeing that kind of 
Libya-like direct transfer of resources from ISIL central all 
the way out to Southeast Asia.
    Senator Kaine. Thank you. My time is up.
    Thanks, Mr. Chair.
    The Chairman. Thank you.
    I will use my first interjection in response. I, like the 
State Department, which Mr. McGurk works for, like the 
Pentagon, like the legal department from the White House, and 
like the White House, agree that this administration has all 
legal authority necessary to combat ISIS. And so I just want 
that to be stated. Certainly we have had multiple hearings on 
how to deal with this. And I personally have pushed back 
against efforts to limit his ability to conduct the operations 
which much of the discussions around an AUMF have been about.
    So I just want to say again I support the efforts that are 
underway. I would like to see it happen in a much more 
expeditious manner. I know it is creating threats to our 
homeland, which we have got to counter, but I do support the 
administration's statement that they have the legal basis to do 
what they are doing. And I want to do everything I can to keep 
us as a body from limiting their ability to do that.
    With that, I will turn to Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thanks for the testimony.
    Turning to your statement about being able to deny them 
territory and impacting their ability to foment terrorism 
elsewhere or direct activities, are we seeing a difference in 
their ability in that their main headquarters in Raqqa, Syria 
really has not been impacted? How much of the activities that 
we see elsewhere are being directed from Raqqa or from areas 
that we have taken back?
    Mr. McGurk. Excellent.
    So their ability to move fighters from Raqqa across the 
battlefield in Iraq and Syria but most importantly from Raqqa 
out of Syria has been significantly degraded.
    Senator Flake. Because of the supply routes being 
challenged?
    Mr. McGurk. Because we have cut off the main roads between 
Raqqa and Mosul. They are now forced onto back roads. We, of 
course, have a special forces targeting team based in northern 
Iraq that goes after them when we are able to see the leaders, 
of course. And so we have greatly degraded their ability to 
move fighters around.
    But most important for our homeland security--and that is 
why this operation in Manbij is so important--is that the 
sophisticated attacks like Paris and Brussels planned in Raqqa, 
they go up through this Manbij Pocket area, they coordinate and 
organize in Manbij City, and then move out through Turkey to 
conduct their attacks. We have worked with Turkey to close up 
that border on its side, and the Turks have done an awful lot 
and we commend them for that. But until we take that territory 
away, ISIL is still able to move in a way that we are not 
comfortable with, which is why this operation in Manbij is so 
critical.
    So it is much harder for them to move now, but do not take 
my word for it. Even in their own statements and Dabiq 
magazine, which they kind of put out to their potential 
adherents, they are saying, hey, do not come to Syria anymore. 
Do an attack at home or go to Libya. And that is because it is 
much harder for them to get into Syria. And we have a ton of 
information on this as we see every morning in terms of their 
inability to get people in, and once they are in, it is very 
hard for them to get out. And we want to make sure they cannot 
get people into Syria, and once they are in Syria, they are 
never going to get out. I mean, that is kind of the essence of 
what we are trying to do with the foreign fighters.
    Senator Flake. You mentioned in your testimony that we are 
killing their leadership at the rate of one every 3 days. What 
impact has that had on their planning abilities or the focus or 
priorities that they have set, whether it is the caliphate or 
external attacks?
    Mr. McGurk. So, I think, Senator, I testified before this 
committee in the summer of 2014 about a month after Mosul fell, 
and what we were seeing then was a highly sophisticated 
military-like organization with command and control able to 
maneuver around the battlefield in mass force, take entire 
cities. It cannot do that anymore. Their leaders are having a 
very hard time communicating. They are having a very hard time 
organizing where they are going to put their resources. So we 
have really degraded their ability to command, to control 
across Iraq and Syria, which is one of the preconditions to 
actually defeating them. So taking out their leaders is not a 
sufficient condition, but it is a necessary condition in order 
to actually degrade in the overall network.
    Senator Flake. Turn to Iran for a minute. Since the nuclear 
deal was struck, we had hoped that some of their posture in the 
region would change. Has their posture changed? In Syria, have 
we seen a change in terms of Iran's behavior or their 
willingness to work with other groups in a positive way, or is 
it all still negative?
    Mr. McGurk. I in my role have not seen a significant change 
in Iranian behavior. ISIL is a threat to Iran. They are 
fighting ISIL from time to time, but they are primarily working 
to prop up the Assad regime. And they are also supporting some 
of these militia groups that I mentioned in Senator Cardin's 
question that are operating outside the legal authority of the 
Iraqi state, which is a threat to Iraq's own sovereignty, are 
kind of supported by Iran. And that is a huge problem. We have 
not seen that diminish since the nuclear deal certainly.
    Senator Flake. Thank you.
    Just in closing, let me just say I share Senator Kaine's 
view that Congress ought to weigh in with an AUMF, not to 
question whether or not we have the authority or the executive 
branch has the authority to wage this war. Even putting that 
aside, I think it is valuable for our adversaries and our 
allies to know that we speak with one voice here. As you 
mentioned, this is going to go on for a long, long time, and I 
think we would all benefit if the Congress weighed in more 
heavily.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, Mr. McGurk, for the efforts that you are 
undertaking.
    I am sure you are aware that there was a widely reported 
story this week about weapons being stolen in Jordan. To what 
extent do we think any of those weapons are going to ISIS?
    Mr. McGurk. Senator, I have seen those reports. I just 
cannot address the roots of that story. I can maybe address it 
in a different setting.
    Senator Shaheen. And to what extent does a story like that 
and the ability to steal from under our noses and the noses of 
the Jordanians, who are one of our most important allies in 
this fight--are they used as propaganda for ISIS in attracting 
new fighters and in promoting their cause?
    Mr. McGurk. Well, what I will say is, having just been in 
Jordan, I met their entire national security team. They are one 
of our closest partners in the region. We are supporting their 
armed forces 100 percent. They are on the very front line of 
this fight, and I think they would be just as concerned as 
anyone here with stories like that.
    Senator Shaheen. Well, I certainly agree. I think Jordan 
has been a terrific ally, which is all the more reason why we 
need to get to the bottom of what has gone on there and address 
it in a way that does not allow it to continue to happen.
    Let me ask because it is very--comparatively easy and 
concrete to be able to track what is happening on the 
battlefield with ISIS to be able to talk about what the efforts 
are to address them, to be able to talk about who in their 
leadership we have taken out. I think it is much more difficult 
to talk and to address the underlying governance issues that 
have allowed ISIS to metastasize, much harder to address the 
messaging that ISIS does to attract new fighters. Can you talk 
about the extent to which this effort is engaged with both of 
those more difficult challenges?
    Mr. McGurk. It is extremely difficult, and it is why there 
is this balance between speed and sustainability. I mean, it is 
true. We could maybe do some things to really speed it up, but 
them you will not have sustainable gains. Before you do a major 
operation to retake a city, you have to have in place who is 
going to hold the city, who is going to govern the city, what 
is the humanitarian--you have to have everything in place. This 
is extraordinarily difficult.
    So what we try to do, particularly in Iraq--and I think we 
have had some success here--is to make sure those conditions 
are in place before we really move to clear out ISIL from 
populated areas. And the governing philosophy of the new 
government of Iraq, led by Prime Minister Abadi, is more 
decentralization, more federalism, more empowering local people 
to control their affairs. And that is very important, and it is 
something that we very much support. We have seen the success I 
mentioned in Tikrit.
    In Ramadi, the capital of Anbar Province, similarly about 
60,000 people returned to their homes shortly after ISIL was 
pushed out of Ramadi, but 100 tragically were killed by these 
booby traps and IEDs that ISIL--as they leave, they put booby 
traps in people's closets and refrigerators. And that is how 
barbaric this organization is.
    And so we now have--through the coalition, we raised $15 
million immediately. We now have demining experts on the ground 
in Ramadi clearing block by block, and that is actually going 
quite well. But it is also an indicator of how difficult this 
is.
    But the heart of your question is really important because 
we cannot just defeat ISIL, we have to deliver a lasting 
defeat. All of these pieces have to come together. It is one of 
the hardest things to do imaginable, but I think if you look at 
Tikrit, if you look at what we are trying to do in Ramadi, if 
you look at the mobilization of the Anbar tribes in Anbar 
Province, we would never have been able to clear all this 
territory in Anbar Province all the way out to Rutbah on the 
Jordanian border without the support of the local tribes. That 
took a lot of work. It took a lot of great work from our 
special forces who are out there working with them in Al Asad 
Airbase way out there by Haditha, but it has begun to generate 
momentum. So you have to pull all these pieces together in 
order to deliver a sustainable defeat of ISIL.
    Senator Shaheen. Thank you.
    I think CIA Director Brennan and others actually have 
talked about as we made gains on the battlefield against ISIS, 
that there is a greater likelihood that we will see terrorist 
attacks in the West and other parts of the world to try and 
draw attention away from what is happening on the battlefield. 
Do you share that assessment?
    Mr. McGurk. Again, I think ISIL has been talking about 
attacking us for years. So it is not something new. The 
Brussels and Paris attacks were organized a long time ago even 
before we started taking their territory away.
    What I do think they will try to do, as they are losing 
territory, as they are losing their central narrative of this 
caliphate, this kind of state that they are creating, they will 
try to inspire, through the Internet, these lone wolf types of 
attacks. And any deranged individual who wants to commit a 
crime can suddenly fly the banner of ISIL and get an 
international headline. And they recognize this and they are 
trying to inspire it. So I think the risk of that is something 
that is very much with us, will be with us for a long time.
    But we will push them out of Mosul. We will push them out 
of Raqqa, but the ideology that is underpinning this kind of 
jihadi ideology--they call it tech fear ideology in which 
anybody who disagrees with them deserves to die. That is what 
they believe. It is completely crazy. That is going to be with 
us for a long time.
    We have to defeat them on the battlefield, but there is 
only so much the United States can do. We also need our 
partners in the Gulf and Saudi Arabia and critical partners of 
our coalition to fight that ideological battle, and they are 
doing so.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. If I could just interject. I certainly agree 
on the ideological battle. We continue to hear from foreign 
ministers of Saudi Arabia, Qatar, other places about their 
desire to more fully enter the battle on the ground, if you 
will. Of course, we hear lots of things. Unless we see 
something, it is not real.
    They then talk about how the U.S.--they have concerns about 
the United States' commitment. Can you share with us the 
reality of, with the right effort, Saudi Arabia and others 
joining us more fully on the ground?
    Mr. McGurk. So I have been to the Gulf quite a bit over the 
last year, and the Saudis, of course, and the Emiratees are 
very focused on the conflict of Yemen. And as we hope the peace 
process there gets underway and that conflict can begin to wind 
down, there will be an increasing focus on Da'esh. We, of 
course, want these countries to join the air campaign, to be a 
part of it. We have heard these same requests from the 
possibility of troops on the ground, things like that.
    It is very important that all of this is organized under 
our coalition effort. We, of course, have planners from all 
these countries in CENTCOM about the next steps of what we are 
going to do.
    And I was in Saudi Arabia with the President at the GCC 
Summit about 6 weeks or so ago, and the Saudis make a very 
compelling case--and it is true--that ISIL is a fundamental 
threat to them. They have plots within Saudi Arabia. Almost 
every few weeks, they are breaking up a plot. And so it is this 
ideological struggle that has to be led by the Saudis, by the 
Egyptians, by the leaders in the Muslim world where I really 
think they can take a leading role. We are working with them on 
that, but they really need to be the----
    The Chairman. But as it relates--I do not want to take up 
too much time here. As it relates to them actually 
participating, they cite in closed doors with us--it is not 
confidential, but they cite the lack of U.S. leadership and 
their distrust and therefore their unwillingness to really get 
engaged.
    Away from the ideological but back to what is actually 
happening on the ground especially in Syria, do you believe 
that the comments they are making are real?
    Mr. McGurk. I think we work very hard to match capabilities 
and capacity with needs, and I think I could go through with 
you in a very detailed way in a different setting kind of what 
we are doing with each coalition partner. We would like to see 
those countries participate in the air campaign. They have been 
participating in the air campaign. The Jordanians are 
participating in the air campaign. And we really need more 
assets in the sky as we develop more intelligence and more 
targets.
    But in terms of ground capabilities, I think our focus on 
empowering local actors to liberate their own territory is the 
most sustainable solution for defeating ISIL, and that will 
remain our fundamental approach.
    The Chairman. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    If my memory serves me correctly, back in 2014 we drew 
about two or three red lines in the sand for Assad not to 
cross. Is that not right? Were we not going to actually do a 
strategic bombing in Syria at one point in time and we backed 
away from that?
    The Chairman. 2013, late August/early September.
    Senator Isakson. Thank you, Mr. Chairman.
    My point is I remember that as well, and we did not really 
have the resolve in the Senate body itself to really move 
forward on that strategic attack, and Secretary Kerry kept 
modifying what that attack would be. And pretty much we backed 
away from it, drew a couple more lines in the sand, and then 
had the 22-month game plan that we are into now on going after 
ISIL.
    There has not been that much mention of Assad in today's 
conversation or, for that matter, much of the conversation at 
all. Where does he fit in in terms of this game plan to take 
out ISIL right now?
    Mr. McGurk. Well, we believe very strongly we have to have 
a political transition process that can lead to a sustainable 
transition inside Syria. And so long as Assad is leading the 
government in Damascus, there is no way this war will ever end. 
That is something we have stated very clearly to the Russians. 
It is something we have stated very clearly to all the backers 
of the Assad regime. This war simply will not end with Assad 
leading the regime in Damascus.
    And it is this question of the best way to set the 
incentives for a sustainable transition. I think militarily 
enforced regime change is something that we have seen before 
and is extremely risky and leaves unintended consequences.
    But the Russians have said that they support a transition 
in Damascus. The Russians have claimed that they will support a 
cessation of hostilities on the ground in Syria. President 
Putin went to his people and said we will support a cessation 
of hostilities inside Syria. And quite frankly, the Russians 
have not done in this regard what they promised, and this 
remains a very serious problem.
    Senator Isakson. Are the Iranians the main strength behind 
Assad? Are they the force behind him right now?
    Mr. McGurk. You know, the level of influence in Damascus is 
something that we look at very closely. It is kind of a sliding 
scale. I mean, the Russians were kind of seen as the main 
influencer maybe about 4 months ago, and I think more recently 
we are seeing the Iranians start to eclipse them a little bit. 
But both of them are backing the Assad regime.
    We say to the Russians, look at this. You guys are in bed 
with the Assad regime, with Hezbollah, with the Quds Force, 
with Qassem Sulemeini. I mean, what exactly are you guys--what 
is your long-term strategy here? And I frankly do not think 
they have one. So they came in to try to bulk up the Assad 
regime. Then I thought they could find a glide path out of 
Syria, but that has really not proven to be the case. The only 
way to have a sustainable solution in Syria is a political 
transition in which all forces can organize against these 
extremist threats.
    Senator Isakson. And that is my point. Given the fact that 
there is not one on the horizon--a political transition--given 
the fact that Syria has just been decimated with the civil war 
over 4 or 5 years, given the fact the Iranians are backing 
Assad pretty steadily all the way through, there appears to be 
no end to Assad's ability to stay in place. Is that not 
correct?
    Mr. McGurk. Well, I think you hit the head on a very 
difficult situation in Syria. So, again, I go back to what the 
Russians said they would do but they are not doing, the 
cessation of hostilities, trying to deescalate the violence, 
trying to organize forces against ISIL and Nusra.
    Where this really comes to a head is in Aleppo. In Aleppo, 
there are multiple offensives going on. There is an offensive 
in southwest Aleppo that is led by the Al Nusra Front, led by 
Al Qaeda. Al Nusra is not a part of the cessation of 
hostilities. And the Russians know they have every right to go 
after and defend Aleppo against that offensive, but what they 
are doing instead is launching--the regime is launching a 
counter-offensive against the moderate opposition in the north, 
groups that are a part of the cessation of hostilities.
    So it is a very serious situation, Senator, and it is 
requiring a lot of our attention and focus. And the Russians 
will either live up to their commitments or not, but right now, 
Putin is either proving unable to deliver on what he told his 
people he would deliver or unwilling.
    Senator Isakson. Well, I know this is a sensitive subject, 
and there are certain things you cannot address, probably 
certainly things I should not say or ask. But it appears to me 
that given Assad's backing by the Iranians and where he is and 
what he has endured for the past 3 years and given the matrix 
that is going on right now in that part of the world, ISIL, 
which we are trying to eradicate, going back to Senator 
Johnson's comments in his questioning, in the end game, as long 
as Assad is there, it is going to be very difficult to take 
ISIL out because they benefit from his staying in that power 
and giving them the authority to do what they do. Is that not 
right?
    Mr. McGurk. Well, where the civil war deescalates, where 
you start to see a--and we saw that in the south, for example, 
south of Damascus--it frees up opposition groups to actually 
fight ISIL. Where the civil war is escalating, opposition 
groups are obviously fighting the regime, and that gives ISIL, 
Al Nusra more space to grow. So dealing with the civil war is a 
fundamental element that in order for a long-term, sustainable 
solution, not just against ISIL but also Al Nusra, which is Al 
Qaeda in Syria, we have to address.
    Senator Isakson. Thank you for your service. We appreciate 
it very much.
    The Chairman. Thank you.
    Before turning to Senator Menendez, you had mentioned that 
when you take out leadership, you are learning a great deal 
about some of the relationships they have in other places. Can 
you tell us where the central nervous system is relative to the 
inspiration efforts to try to get people here in the United 
States and other places to conduct operations against 
Westerners? Where is that central nervous system housed? Is it 
in the caliphate, or is it outside?
    Mr. McGurk. I will give you an example of how difficult 
this is. So I believe, from everything I see, it is in Raqqa. 
And their leader trying to instigate these attacks was Jihadi 
John. Jihadi John is known as the brutal murderer of American 
hostages. But he was also a computer hacker, and he would sit 
in his apartment in Raqqa all day trying to inspire attacks in 
the West, here in our homeland and in other partner nations. He 
would just sit there in the apartment with hundreds of 
civilians in the apartment building. And it creates a real 
dilemma. You have to take out Jihadi John. We know where he is, 
but you do not want to destroy an apartment building with 
hundreds of people.
    So we waited for him to come outside one day, and we were 
able, with very precise precision, to eliminate Jihadi John. He 
was their number one guy on the computer all day trying to 
inspire attacks. He was sitting in Raqqa in a crowded apartment 
building.
    So I believe the heartbeat of it is Raqqa, and that is why 
after Manbij, we are going to organize a force to move down and 
isolate Raqqa.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. McGurk, I have always appreciated your candor in closed 
sessions. I appreciate your efforts, and obviously we all wish 
you the best of luck.
    But I have some real concerns as I have read the testimony 
and listened to some of your responses. So let me try to see if 
you can help me assuage them.
    I want to return to CIA Director Brennan's remarks where he 
said--and I quote--unfortunately, despite all progress against 
ISIL on the battlefield and in the financial realm, our efforts 
have not reduced the group's terrorism capability and global 
reach. And he goes on to say, the group would have to suffer 
even heavier losses of territory, manpower, and money for its 
terrorist capacity to decline significantly. And in fact, as 
the pressure mounts on ISIL, we judge that it will intensify 
its global terror campaign to maintain its dominance on the 
global terrorism agenda.
    And then I heard your response to Senator Cardin when he 
asked what happens, for example, in Iraq after we take 
territory back, and your response was that we are not repeating 
past mistakes, we are not reconstructing Iraq.
    But it sort of like begs the question. Are we not actually 
repeating past mistakes? When you point to the map and you talk 
about Anbar and Mosul and Tikrit, these were places where our 
men and women gave their lives to fight one form of oppression, 
and now we are in midst of engaging in those same locations 
again as it relates to ISIL.
    So how is this different? How is it that you are suggesting 
that we are not repeating past mistakes in terms of holding 
territory after we have cleared it and spent an enormous amount 
of lives and national treasure--we are doing this now for the 
second time--is not a repeat of past mistakes?
    Mr. McGurk. Thank you, Senator.
    What I meant by that comment specifically was on the model 
of reconstruction. We spent $60 billion on reconstruction in 
Iraq, and I do not think the record is one that was worth, 
frankly, that investment on the specific reconstruction case 
because we identified big projects without the real buy-in of 
local people.
    So what we are doing now, we have this stabilization fund 
that requires the local people to identify the immediate 
specific needs for their communities. So how do you get the 
water back on, lights back on immediately?
    Senator Menendez. So I take your answer, your clarification 
to be that you meant the funds that we spent for 
reconstruction, but what are we doing? Do we believe the Iraqi 
forces, ones with our assistance, clearing out Anbar and Mosul 
and Tikrit are going to have the ability to sustain and hold 
the places that we have cleared so that we are not there for a 
third time? Is that your view?
    Mr. McGurk. Well, to date, as I mentioned, all the areas 
that have been taken back from ISIL--none of them have been 
retaken by ISIL. So I think that indicates at least that we 
have hit on something that is successful. You know, these are 
not American forces in the streets of these cities trying to 
hold the territory afterwards. We are organizing local police, 
local people who know the streets, who know the people to hold 
the territory afterwards.
    Senator Menendez. So your answer is yes. Your answer is 
yes. We believe that the Iraqis, through all of their combined 
forces, once cleared, will be able to maintain those 
territories on their own and be able to make sure that ISIL 
does not recapture any dominance in them.
    Mr. McGurk. I think the record so far in that regard is 
encouraging. This does not mean Iraq will not be full of a host 
of problems for many, many years to come, but an organized 
international genocidal terrorist organization controlling 
cities is something that I do not think they will be able to 
do.
    Senator Menendez. Let me turn to Syria. I assume that the 
administration's view is that the peace talks are our best 
avenue towards a solution. Is that a fair statement?
    Mr. McGurk. That has remained a consensus, an international 
consensus, that we need a diplomatic, political transition in 
Damascus to lead to a sustainable solution.
    Senator Menendez. And that is, in essence, the 
administration's hope. That is its policy. Right?
    Mr. McGurk. A political transition in Damascus, which is 
now enshrined in a U.N. Security Council resolution 2254.
    Senator Menendez. So here is my problem. The United Nations 
Special Envoy for Syria, Mr. de Mistura, said last week that he 
hoped that the Syrian peace talks would resume in July but only 
if the security and humanitarian situation on the ground showed 
clear improvement. And he said political talks cannot proceed 
while hostilities are escalating and civilians are starving.
    So on the one hand, we place our hopes in the United 
Nations process encouraging the coalition to do the same. On 
the other hand, the United Nations does not have a way forward 
because the security and humanitarian situation on the ground 
is not improving.
    So the question remains--I do not particularly view that 
Russia and Iran have the same goals as we do as it relates to 
Syria and the Syrian people. Do we not need to be engaging in 
trying to improve the security and humanitarian situation on 
the ground so that the aspirational political talks can move 
forward? Should we not be looking at safe zones, no-fly zones, 
other elements of trying to create the basis for the 
aspirational peace talks to take place?
    Mr. McGurk. There is no question that with the current 
levels of violence, without a deescalation of violence, without 
a cessation of hostilities that can be maintained, the 
conditions for a meaningful political process that leads to 
transition are extremely difficult. So you are right, Senator.
    On the humanitarian side, since the cessation of 
hostilities has been in place, we have managed to reach almost 
10 times as many people who had been reached in an entire year 
before, but it is not nearly enough. And the Assad regime 
continues to even attack areas after humanitarian aid is 
delivered.
    The real flash point of this right now is Aleppo where 
these multiple offensives are ongoing, as I mentioned. And we 
are working very hard to try to deescalate that. But without a 
cessation of hostilities that can be maintained and 
humanitarian aid getting to the people in need, the political 
process in Geneva really remains at a standstill.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. If I could before turning to the Senator 
Perdue. There was a group of 51 people who dissented on U.S. 
policy, which I think is a good thing that the State Department 
allows that type of dissent to take place, and certainly we do 
not want to do anything to stifle that.
    I also get the sense that very high leadership within the 
State Department has urged that we put pressure on Assad 
militarily because of this lack of cessation that has taken 
place, and the fact that when humanitarian aid is delivered, 
the next day you have a barrel bomb killing the very people 
that humanitarian aid was given to.
    Can you give us any sense of whether there is a debate 
relative to how to handle Assad and the fact that with no 
cessation occurring, that maybe enhanced military pressure from 
the U.S. may be a route that is worth taking?
    Mr. McGurk. We are, Mr. Chairman, looking very closely at 
how to have an enforceable cessation of hostilities. And so 
that is something that is very much underway.
    We have also looked very closely at--you know, the Assad 
regime, even just all the open source statistics--about 100,000 
fighters on the side of the Assad regime have been killed by 
the opposition. GDP has collapsed 80 percent. Those are the 
types of assumptions that 4 years ago I think many people 
assumed would lead to conditions that would set a political 
transition, but it has not.
    So what we need is an enforceable cessation of hostilities, 
and we are looking at----
    The Chairman. Which we do not have and, without pressure, 
are not going to get. And I think everyone, including you, 
understands the circular situation we are in. It is not going 
to happen. I mean, we met with Secretary Kerry in Munich--
Senator Perdue was there and others--felt that this cessation 
issue was not real. It has not been real. And I do not see 
anything at present that is going to change that dynamic.
    I look forward to questioning you further.
    I am going to go vote, Senator Perdue, and I will come back 
hopefully in time for you and Senator Markey to go vote. 
Senator Markey is next, and you are now chairman.
    Senator Perdue [presiding]: Thank you, Mr. Chairman.
    And thank you, Mr. McGurk. Your testimony is always candid 
and to the point. I know you are the messenger.
    I personally am concerned about the 14 months from now, the 
end of the 3 years. And I am not putting words in your mouth, 
but I want it on the record I am very concerned about that.
    I want to talk about Syria just a minute, though. It seems 
to me that we have had witnesses in here that have given us 
testimony that the best option in Syria is a Sunni fighting 
force on the ground, a coalition Sunni fighting force, not an 
American force, not an outside force, but a Sunni fighting 
force. We see in Iraq we have got issues with Shia militia and 
security after a town is liberated and so forth.
    In private meetings with some of the major players, they 
have given us information that they are ready to stand up, in 
Saudi Arabia's case, potentially 30,000 fighting troops to 
fight ISIS in Syria. Their concern is a lack of U.S. leadership 
and resolve, and so they are not doing that. They are waiting 
on the U.S. And so can you speak to that in a little more 
detail?
    I am concerned that we get into Syria, it is a much more 
confused battle space than what we see in Iraq. Iraq is about 
territory now. And as we saw in Afghanistan and we are seeing 
today in Afghanistan, when the troops liberate a city and they 
turn it over to the police, that is where the Taliban comes 
right back. We see it this year as I sit here. So the question 
in Iraq is a different one. I am trying to get at Syria 
relative to what kind of fighting force is going to be able to 
sustain a long-term effort not only to take the ground but to 
hold the ground once it is liberated in Syria.
    Mr. McGurk. So, Senator, the fundamental premise here of 
what we need are local people to liberate and hold their own 
territory. So in the Sunni Arab areas of Iraq, we need Sunni 
Arabs from the local area. So what we have tried to do--I 
mentioned mobilizing the tribes of Anbar Province, training 
local police. We have a coalition effort led by the Italians 
training about 900 local police every 3 months. We are looking 
now to triple that by the end of the year. These are kind of 
police leaders who then organize the local people. That effort 
has actually been successful.
    But we very much agree that we need Sunni Arabs to be the 
ones to liberate and hold their own territory, but oftentimes 
they need help. ISIL in many of these cities and towns that 
they have held for years is an army, and they defend it like an 
army. And so you cannot just take out a bunch of Sunni 
tribesmen and kind of train them for a couple weeks and put 
them in the fight to go liberate a city like Fallujah. It just 
cannot work.
    I have also met with Sunni tribal leaders who are exiled 
from Iraq and Syria and claim to have tens of thousands of 
people ready to fight. And we say give us the names. We will 
get them in the fight. And oftentimes they do not have that 
level of influence on the ground. So it is a very complex 
dynamic.
    What we found in Anbar was really critical is having 
presence. So we have two sites in Anbar Province, one in Al 
Asad Airbase and one between Fallujah and Ramadi at Taqaddum 
Air Base. That is where our coalition advisors are located. And 
that has given us the ability to figure out who is who, 
organize local Sunni fighters and give them the capacity to 
succeed.
    And now in Syria, the reason we have gone from 50 special 
forces advisors up to 300 is for this very reason. And we 
recognize that the force that will alter----
    Senator Perdue. I am sorry. Are those 300 special forces 
primarily training? Is that what they are doing?
    Mr. McGurk. Primarily training and some are out advising.
    But the main mission there--again, Manbij will be a 
difficult fight. That is ongoing now, but after Manbij, it is 
organizing the force that will push down on Raqqa.
    Senator Perdue. Can I ask you a follow-up question on that?
    Last year in 2015, a training program was initiated. At the 
end of the day, we had spent about $45 million in 2015 under 
testimony at Armed Services, and we had trained about five 
people. So that was an unmitigated disaster.
    As we sit here today, the numbers have been reported in the 
100 range, and we have spent somewhere close to--I think we are 
approaching the $500 million that was authorized, I think.
    Can you talk about the training program that we have 
initiated? I know that we got special forces there doing that, 
but how many forces are really going back in to fight? And are 
these really trigger pullers, or are they just enablers or 
spotters or support people?
    Mr. McGurk. So let me try to explain what we are doing. So 
the effort that was tried to kind of organize and train these 
brigade-like units is something that did not work.
    What we are doing now is there are a lot of fighters on the 
ground that are fighting ISIL every single day. Rather than 
taking them all out and training them in a 6-week course, what 
we are doing now is identifying those groups. They are vetted. 
They get support from us. They get supplies from us. And then 
we take out a couple of their leaders or some of the people 
they identify to learn how to call on airstrikes, to learn how 
to do more sophisticated type things, which then is a force 
multiplier for that unit.
    So we have a system now that is very well structured in 
terms of a force that we work with on the ground being able to 
call in precision airstrikes, but it takes some training. 
Again, rather than trying to organize these large units to 
maneuver around, which is something that was not very 
successful, we are identifying units that are actually on the 
ground. They know the local area. They are able to fight. And 
then giving individual leaders those specialized skills that 
will enhance their capabilities on the ground.
    Senator Perdue. I appreciate that, but we really are not 
adding additional fighters through that training mechanism at 
this point in any significant numbers. Is that fair to say?
    Mr. McGurk. Through that effort, no. What we are trying to 
do is organize and grow the force that will move down 
particularly on Raqqa because that is a prime target of ours.
    Senator Perdue. I noticed the ranking member is back. I 
think it is you and me right now until the people get back from 
voting.
    Senator Cardin. Well, I like the numbers here. This works 
well. [Laughter.]
    Senator Perdue. I have got another question. I would like 
to talk about the second level of the fight. The first fight is 
kinetic on the ground and in the air. And I see that is a very 
messy fight in Syria with all the different groups that are 
fighting each other on different days. I would like to talk 
about the hybrid war that is underway. You have related to it 
earlier.
    In January 2016, the administration announced a major 
change in our direction there in terms of trying to counter the 
message of ISIS on social media and other hybrid platforms. How 
is that working, and have we been able to draft outside voices 
to really try to counter ISIS? I guess the question overall is 
what are we doing today to truly try to counter the ISIS 
message in this hybrid warfare in propaganda and cyber and 
social media.
    Mr. McGurk. So a great question.
    So we, of course, established at the State Department the 
Global Engagement Center, the GEC, which is focused on this 24/
7. But this is not something that can just be done out of 
Washington. We need a global network to go after their online 
messaging.
    2 years ago when this started, they had a kind of a free 
rein on Facebook, on Twitter, on Youtube, and their message was 
one of come join this glorious movement of the caliphate. And 
we have really reversed that trend. So Twitter is one data 
point. For every single pro-ISIL Twitter handle, there are now 
six anti-ISIL, kind of combating them every 24/7 in cyber 
space.
    Senator Perdue. Where are those six? Are they U.S. handles?
    Mr. McGurk. No. They are all over the place. Some of them 
are just voices from the region or different parts of the 
world.
    Senator Perdue. Are they coordinated?
    Mr. McGurk. Some of it is coordinated. But what really 
works most effectively is kind of the non-coordinated, organic 
counter-messaging.
    We are also working with those companies. Twitter has taken 
off about 125,000 pro-ISIL sites. That is continuing. We are 
working with Facebook and Youtube on that.
    But you asked a good question, how is this organized? And 
the Internet is kind of an organic, obviously, enterprise. You 
cannot really just have centers to do this. But we do have 
coordinating centers.
    Senator Perdue. We have just stood up two Army brigades of 
cyber warfare warriors.
    Mr. McGurk. We do. We have centers to kind of lead this 
effort. We do some here. We have an organization in UAE called 
the Sawab Center. I went there to visit them. They are young, 
smart, engaged, dynamic, incredible young people, Muslims from 
the UAE and from the area that want to fight ISIL online. They 
are doing a great job. Malaysia has also been leading this. And 
that is important because in different parts of the world, the 
message is very different. So in the Gulf, you kind of have a 
more religiously inspired messaging focus from ISIL. In Europe, 
often it is the sun-drenched scenes of the caliphate. Come 
bring your family, you know, literally kids eating ice cream 
cones. It is a total lie. And so in Europe, they are working to 
counter that.
    But I think this network of voices on the Internet now is 
starting to turn the tide against their messaging.
    Senator Cardin. Let me rescue my colleague. There is no 
time left on the vote on the floor. So I want to make sure he 
gets over. Even though I am not sure we are voting the same 
way, I want to make sure he can get over and cast his vote.
    Senator Perdue. Thank you.
    Senator Cardin [presiding]: Since I have the committee 
right now--no. Mr. McGurk, members are coming back. They just 
went to vote. I started over on the floor so we could continue 
the hearing.
    Let me ask you. We have talked about territorial gain and 
what happens afterwards. In Syria, you put a lot of confidence 
in Manbij, in that area, being able to block the routes to 
Turkey. What does Assad do? What does Russia do in regards to 
the territorial gains in Syria? What will be their strategy?
    Mr. McGurk. So, as you know, we do not coordinate at all 
with the Russians. We talk to them to deconflict air space, and 
also when we are running an operation, we kind of make sure 
that there is no interference. And so far, in most cases, that 
has been the case.
    The forces we have worked with that have retaken territory 
we have found have been able to govern that territory fairly 
effectively.
    One problem we have in Syria that we have not had in Iraq 
is that the ability to get humanitarian assistance, 
humanitarian supplies into some of these areas is extremely 
limited, and this gets to the issue, of course, with Turkey and 
with the Syrian Kurds and kind of that conflict and the border 
being closed.
    In Manbij, for example, once Manbij is liberated, we have 
identified the NGOs, the resources to get humanitarian aid 
flowing into Manbij, but we have to find the border posts and 
to work with Turkey to make sure that it can get in.
    So I would just say so far we have not had any interference 
from the regime or the Russians in terms of particularly in the 
north where we have taken territory away from ISIL.
    Senator Cardin. But as far as the Assad loyal forces 
conflicting with the Syrian democratic forces, is that likely 
to occur in these areas?
    Mr. McGurk. This gets really complicated in northwest Syria 
where you Syrian regime forces. You have the Syrian democratic 
forces and the Kurds and the YPG. You have Syrian opposition 
forces, none of whom really coordinate and many of whom 
disagree with each other at a local level.
    Actually this morning I was just working on this with some 
colleagues. We are working to get the leaders of all of those 
groups together, not including, of course, the Syrian forces, 
to talk about literally locally based what is happening in this 
town, what is happening in that town to try to quiet things 
down between groups, all of whom share the threat of ISIL.
    This is the most complicated thing from the strategic 
level, within the region and different countries and different 
capitals not always agreeing with one another, to say the 
least, and then at the local tactical level. So we have to work 
it really in all dimensions.
    So what we are working to do in this northwest Syria area 
kind of called the Azaz Corridor is to get the leaders of 
different groups together with us to talk about how we can 
better work together here to get humanitarian aid flowing and 
to better organize forces against ISIL.
    Senator Cardin. Thank you.
    The Chairman [presiding]: Senator Rubio.
    Senator Rubio. Thank you.
    I want to begin. You talked earlier about now as ISIS 
begins to lose control over territory, you are going to see 
them increasingly relying on the ability to inspire attacks 
abroad by individuals who perhaps are not being directed by 
them but are being inspired by them. And you in fact said 
deranged individuals who can commit mass atrocities or whatever 
and doing it under the banner of ISIS. That seems to describe 
what we saw just 2 weeks ago tragically in my home State of 
Florida in Orlando. And so what you were saying is that as ISIS 
continues to lose territory and the ability to argue that they 
have created this caliphate, attacks like the one we saw in 
Orlando with individuals that fit that sort of profile will 
become more commonplace potentially and not just in the U.S. 
but in other parts of the world as well.
    Mr. McGurk. Senator, I am not sure I would say more 
commonplace. ISIL's propaganda has always called for attacks in 
our homeland. But as they lose territory--you know, they have 
stopped kind of calling--in Dabiq magazine, for example, I 
mentioned they have stopped calling for people to come to 
Syria. They are now saying, hey, stay at home. But they have 
been saying this for a couple years. So this is a problem. That 
is why I just have to be very candid in my assessment. It is 
the assessment, of course, of the administration and Director 
Brennan. This is a threat that will be with us for years.
    We have had 40,000 of these foreign fighters come into 
Syria. Fortunately, we are killing them by the thousands inside 
Syria so they cannot get out. And we do believe that taking 
away their territory, taking away this notion of a caliphate, 
which has been a fundamental driver of their recruitment, will 
diminish the appeal of ISIL. But that does not mean they could 
then fly another banner, whether it is Nusra or something else.
    Senator Rubio. The thing I am trying to break through is 
this distinction that exists out there between ``directed by 
ISIS'' and ``inspired by ISIS.'' In my mind, there is no 
distinction. They are two parts of the same strategy, which is 
to get people to commit terrorist acts in the name of ISIS in 
an effort to terrorize who they view as their opponents and 
call attention to their organization. There is no distinction. 
Inspiration is a way of directing these attacks as we saw here 
just a few weeks ago tragically.
    And then you talk also--because this is another point that 
I have made. Even if you were to wipe them out on the 
battlefield, the ideology that underpins ISIS, this radical 
jihadist ideology, will remain in place. I think that when it 
comes to the issue of Syria--and this has already been touched 
upon in some of the other questions that we have heard here, 
Syria will remain a fertile ground for an ISIS-like group. It 
will be Jabhat al Nusra next or somebody else to step up and 
fill that vacuum as long as Assad is in power. He is the 
irritant that creates the conditions by which these sorts of 
things exist on the ground. That does not mean that everyone 
that is against Assad is a radical jihadist, but his presence 
there creates enough of an irritant, especially among Sunni 
populations where groups like ISIS or some successor group 
could take advantage of that to further their ideology and in 
essence take up arms the way ISIS has done. Is that not 
correct?
    Mr. McGurk. The Assad regime remains an incubator for--the 
conflict inside Syria remains an incubator for extremist groups 
on both sides of the sectarian divide. And it is the sectarian 
divide in the region that super charges these extremists from 
both sides. We see young Shia from Afghanistan coming in to 
fight in Syria and young Sunnis from all over the world coming 
in to fight in Syria. It is something that is destabilizing 
most importantly to Syria, but can also spawn attacks outside 
of Syria. So getting a handle on the Syrian civil war--I very 
much agree with you, Senator--is a fundamental precondition to 
mitigating the risks of ISIL and Jabhat al Nusra, which is an 
increasing concern.
    Senator Rubio. But not just getting a hold of the--I mean, 
the removal of Assad is critical. It is a critical component.
    Mr. McGurk. Well, the war will not end so long as Assad is 
there.
    Senator Rubio. Right. And to that point, the process we 
have in place now to achieve it through Geneva has been 
described to me now by people, including those involved in the 
process, as something that is circling the drain, in essence. 
It is not going well. The process in many ways has given Russia 
cover to do some of the things they have now done like, for 
example, much of the Russian military engagement in Syria has 
not been targeted at ISIS. It has been targeted at non-ISIS 
groups, and in particular, we saw an open source report last 
week that they specifically targeted U.S.-backed rebels near 
the Jordanian border. Is it not true that much of Russia's 
military action in the region has been geared towards non-ISIS 
rebels in an effort to basically wipe them out and then turn to 
the world and say you have two choices in Syria, ISIS or Assad?
    Mr. McGurk. So when Russia first came in, about 70-80 
percent of their attacks were against opposition groups, 
moderate opposition groups, and after the cessation of 
hostilities, we did see that flip so that they were focused on 
Palmyra and other areas. But in the last weeks we have, as the 
situation particularly in Aleppo has escalated, they are 
conducting a significant amount of airstrikes in that northern 
Aleppo corridor, which is where we believe the moderate 
opposition is based. And so that is a total violation of the 
cessation of hostilities.
    We have two problems with the cessation of hostilities. One 
is Jabhat al Nusra, which is launching these massive 
offensives, and then second is primarily the regime air force. 
So the regime air force, as far as we can tell, is basically a 
criminal enterprise dropping barrel bombs and attacking 
civilians under the pretext of attacking Nusra. So long as this 
is going on, it is a Petri dish for extremist organizations.
    Senator Rubio. Well, my time is up, but I just want to 
leave something on the record. I share the objective of 
retaking Manbij. I am concerned about the reliance that we 
placed in our alliance with the YPG and in their activities 
there and what that means both to our relationship with the 
Turks and ultimately to their stated goal of uniting the 
cantons across northern Syria. I think it is a strategy that 
perhaps was viewed as necessary given the realities on the 
battlefield, but I think in the long term creates some 
significant complications in the region with a number of 
different groups, including the Kurds in Iraq.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. McGurk, during the past 2 weeks, both Ambassador 
Silliman, the nominee to be Ambassador to Iraq, and Jonathan 
Winer, the Special Envoy for Libya, testified before the 
committee. It is obvious that tactical successes against ISIS, 
whether in Iraq or Libya, will not bring about the strategic 
defeat of ISIS unless tactical operations are done in ways that 
not only avoid harming civilian populations but proactively 
protect them from harm and, two, we and international partners 
undertake aggressive political interventions to negotiate 
agreements to bring together divergent armed groups under 
unified governments that represent and protect all of the 
people.
    In your testimony, you acknowledged that the Fallujah Shia 
militias committed abuses against Sunni civilians who were 
fleeing for their lives. It is also apparent that adequate 
advance preparations were not made to receive, transport, and 
provide relief to tens of thousands of people who fled the 
fighting in Fallujah. And I understand that after the fact, the 
Iraqi Government says it will hold offenders accountable for 
abuses and also that the international community is stepping up 
humanitarian relief efforts. But I am very concerned that 
after-the-fact fixes may not be enough to convince Sunni people 
that the Iraqi Government is on their side.
    So my question is, what are the Iraqi Government actions? 
What are the armed forces doing before and during military 
operations to identify and mitigate foreseeable risks that Shia 
militia will engage in sectarian attacks on Sunni civilians? 
Are there specific things that our people who work with the 
Iraqis are doing or should be doing to ensure that battle plans 
include proactive measures to prevent such attacks from 
happening? We are politicians on this panel. That is the one 
thing that we are experts on. People will not forget if they 
were not protected even if there is a tactical victory in any 
individual city.
    Mr. McGurk. Thank you, Senator. This is critically 
important. It is something, when I was in Iraq last week, took 
up many of my discussions, particularly with Prime Minister 
Abadi and with the Iraqi security leaders.
    It is important to recognize that most of the atrocities 
committed against Sunnis in places like Fallujah and Anbar 
Province are committed by ISIL. ISIL kind of held that 
population hostage. We are finding prisoners in dungeons and 
cellars in which they were committing incredible atrocities 
against Sunnis. When they retook Anbar Province, ISIL massacred 
hundreds of people from the Albu Nimr tribe, a very proud tribe 
in the central Euphrates Valley.
    However, we have to make sure that when security operations 
come in to liberate these areas from ISIL, that these lawless 
groups are not part of the operation. And as I mentioned, in 
the early days of Fallujah, we had a serious problem. About 24 
hours, there were serious reports, many of which have turned 
out not to be credible but some of which appear to be credible. 
And the Special Representative to the U.N. testified before the 
U.N. Security Council about this last week, particularly about 
the measures that are now in place to mitigate the risk of 
this.
    So one thing that happens when you liberate a territory and 
the civilians come out, you do have to screen the population to 
make sure that ISIL terrorists have not infiltrated that 
population. So in Anbar, now there is a local official from 
Anbar, from the local area that is a part of that process every 
step of the way. That is something that the local leaders of 
Anbar insisted on, and that is now in place.
    And in our discussions in Erbil on how to do the Mosul 
campaign--this is a front and center issue--we have to make 
sure that these types of events do not occur in Mosul and that 
all the forces that take part in the Mosul campaign are 
operating strictly under the control of the Iraqi security 
forces.
    Senator Markey. What does the government say to you?
    Mr. McGurk. The government--and this is why the Government 
of Iraq is a real partner in this regard. The government is 
supportive. I mean, those atrocities were a tarnish on the 
government, on the Iraqi army, the Iraqi security forces, and 
that is something that Prime Minister Abadi very much 
recognizes.
    Senator Markey. And did they agree that Fallujah was a 
mistake, the way it was conducted?
    Mr. McGurk. Certainly. It was really in the 24 hours of the 
offensive move into the city in which we had these reports. And 
it was top to bottom voices inside Iraq, from the Shia 
religious community, from Grand Ayatollah Sistani, all the way 
to Muqtada al-Sadr--immediately condemned those reports of 
abuse. Of course, the government did. The minister of defense 
announced the arrests of some members of the Iraqi army even 
who were involved in that abuse. And they have to remain 
vigilant against this. When you have got a lot of young people 
out on the streets with guns in a type of situation like this, 
it is almost impossible to mitigate the risk of anything 
happening. However, when you see something like we saw in the 
early days of Fallujah----
    Senator Markey. How many people have been punished so far 
for what happened in Fallujah?
    Mr. McGurk. I think about four or five members of the Iraqi 
army have been detained and some members of the----
    Senator Markey. What is their punishment so far?
    Mr. McGurk. I do not think the investigation has been 
concluded.
    But our principle is and we are saying repeatedly is that 
people have to held accountable when reports are found to be 
credible.
    Senator Markey. What is the answer to why were the Shia 
militia allowed to be put in those positions where they can 
commit those kinds of atrocities? What is the answer that you 
get from the government?
    Mr. McGurk. There is one particular unit of the popular 
mobilization forces on the Shia side that was operating totally 
outside the law in some of the suburbs of Fallujah such as 
Saqlawiyah. So I cannot say specifically why that unit was 
there in Saqlawiyah. But what I can say is that the government 
has taken measures to make sure that it is addressed.
    Senator Markey. And I know my time is going to run out.
    But I guess what I would say is if those five individuals 
and more are not severely punished and punished in a way that 
is public and clear, then there will be no discouragement in 
the other cities that we are trying to take. So I think your 
key political job is just to make sure that there is a 
punishment for those people because otherwise other militia 
will think that they can do it, get a slap on the wrist, they 
accomplished their vengeful purpose, but at the end of the day, 
they create a political conundrum that is very difficult to 
solve in the years ahead, that we not have to revisit this 
thing politically.
    So is that a goal that you have, that these people be 
punished?
    Mr. McGurk. Accountability is fundamental.
    Senator Markey. You are saying punishment for those five.
    Mr. McGurk. Accountability. That means that----
    Senator Markey. Accountability can just be calling them out 
and saying do not do it again.
    Mr. McGurk. Punishment under the law, yes. So they have to 
have a process and people have to be held accountable, and that 
means they have to be punished when violations occur.
    Senator Markey. Thank you.
    The Chairman. Thank you, sir.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I know we consider Mr. McGurk to be a global citizen, but 
he is indeed a graduate of Hall High School in West Hartford, 
Connecticut.
    Mr. McGurk. Conard High School actually.
    Senator Murphy. Conard. I am sorry. Let me try to recover 
from that. [Laughter.]
    Senator Murphy. So thank you for being here, Mr. McGurk, 
and thank you for taking on what is, frankly, a nightmare of a 
job, trying to manage this crisis and manage this coalition, 
and we are lucky to have you at the helm.
    In response I think to a question from Senator Corker 
earlier, you were talking about our concerns about some of our 
coalition partners not being as involved as we would like, 
especially with the air campaign. And so I wanted to ask you a 
question relative to the reasons why some members of the 
coalition are not participating at the level that we would 
expect.
    When I was in Abu Dhabi at the end of last year, I went to 
get a brief from the ministry of defense. I was there with 
another member to oversee our counter-ISIS campaign. And the 
title of the brief, knowing that I was there to talk about the 
coalition fight against ISIL, was the threat from Iran. And the 
entire brief was about the work that the UAE and other 
coalition members are doing to counter the expansion of Iranian 
influence. And from what I understand, their focus, the Saudis' 
focus and UAE's focus, on Yemen has been one of the primary 
reasons why they have been less participatory in the air 
campaign against ISIL.
    And so speak to the worry that some of us have that this 
concentration of focus on Yemen, which is facilitated by U.S. 
support, has quite frankly distracted resources from members of 
the coalition that we would like to be primarily used in the 
fight against ISIL. So we complain about the Saudis and the UAE 
sort of withdrawing support from the air campaign against ISIL, 
but to many of us, it appears that we have facilitated that 
withdrawal by assisting their air campaign in Yemen against the 
Houthis. So talk about the intersection of those two conflicts 
and how we get some of our partners to focus first on ISIL 
rather than first on the Houthis.
    Mr. McGurk. There is no question that the conflict in Yemen 
has pulled resources away from what was a real focus on the 
counter-ISIL campaign. That is one reason we have focused quite 
a bit in the recent months on trying to establish a political 
process to end the conflict in Yemen.
    Our close partners, the Saudis, when they see a threat on 
the border, they have to act, and so we recognize their need to 
act. The Emiratees have been one of our closest partners 
militarily particularly and they have maintained a strong 
participation in the counter-ISIL campaign.
    But we do very much believe the primary focus here is on 
ISIL, that ISIL is a threat not only to us, but it is also a 
threat to the Kingdom of Saudi Arabia. I think that is 
something the Saudis will tell you.
    But all I can say, Senator, is where we are right now, we 
want to end the war in Yemen in order to really focus efforts 
on the counter-ISIL campaign. So as these multiple conflicts 
have been going on, it has reduced the resources that we have 
been able to focus on ISIL over the skies of Syria.
    That said, over the past recent months, we have had four 
additional coalition partners extend their strikes into Syria. 
I was just in Iraq talking to General McFarland, our overall 
commander. This is the most kinetic phase of the campaign to 
date. 70 percent of the planes now taking off are actually 
dropping their munitions. That is because we have better 
intelligence. We have more partners on the ground fighting. But 
that also brings us to the key point which you are raising is 
that we need more resources in the skies as we continue to 
accelerate.
    So I am hopeful that as the Yemen political process moves 
forward--and we all hope that it does--that we will have more 
capacity brought to bear against ISIL.
    Senator Murphy. Second question. There have been a number 
of reports in the press over the last month or so about groups 
within the rebel coalition fighting each other, and some of 
this is relative to groups that are backed covertly by the 
United States. And I understand the limitations on how much you 
can talk about that, recent reports about conflicts between the 
FSA and the YPG.
    For many of us, our reluctance to arm and train groups 
inside the fight is because we have a belief that we are in the 
second order of fighting today. The first order was a fight 
between the rebels and Assad. The second order is the part of 
the war in which ISIS has joined. But there are then third and 
fourth and fifth orders that may involve groups that have been 
funded by the United States fighting each other as the 
battlefield shrinks and perhaps we actually make progress 
against some of the groups that right now provide a buffer 
between organizations that are funded by the United States.
    Just speak to the fear that ultimately groups that are 
armed today by the United States who may be fighting the same 
enemy may ultimately be fighting each other if we are 
successful in our effort to try to downgrade the power and 
lethality of some of these existing groups.
    Mr. McGurk. So, Senator, where we are successful at kind of 
tamping down these locally based conflicts is where we have 
relationships and a presence on the ground. So in Iraq, we have 
had problems between Kurds and Arabs. We have had problems 
between different groups in Anbar Province, Sunni-on-Sunni 
things. Where we are present and we have relationships, we can 
tamp it down.
    To be very candid, what is frustrating on the Syria side, 
we do not have anybody inside Syria on the ground. Sometimes it 
is very difficult to tell what is happening. We rely on people, 
particularly in the northwest, telling us what they think is 
happening. And our ability to then tamp down localized 
escalations is not what I wish it was.
    In eastern Syria, where we do have platforms now, we are 
developing a relationship base that has been very effective and 
that we hope we can build upon in this northwest part of the 
country where you are talking about we have these localized 
competitions between different groups that we support that we 
can work locally to deescalate that.
    But I just have to be honest. Without people on the ground 
working these problems, it is very hard. It is very hard to do 
it by remote control. And in Iraq, we have people on the 
ground. We have relationships. When things flare up, we can 
really work to flare them down. In eastern Syria, kind of east 
of the Euphrates, we have platforms. We are developing close 
relationships. To Senator Rubio's question, we recognize we 
need an Arab force to move down on Raqqa not just the Kurds. 
That is why we have these platforms. We are recruiting the 
Arabs by the thousands now. But in northwest Syria, it is 
incredibly difficult, and it is one of my frustrations working 
on this day to day, frankly.
    Senator Murphy. And I think you have identified the Gordian 
knot that we all have to deal with, which is that you are 
saying without more American presence on the ground, we risk 
these local conflicts becoming more heated and more 
problematic. But of course, many of us know the risks 
associated with putting more U.S. forces on the ground. This is 
a tough one to figure our way out of and again part of the 
reason why I am glad that you have taken up this assignment.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I know we are few minutes past your hard stop, and I will 
be very brief.
    You had earlier talked about Manbij laying the foundation 
for what we would do in Raqqa. And I know you have talked a 
little bit with Senator Rubio about the makeup of what needs to 
happen.
    Do we feel at present the forces can be assimilated to deal 
with Raqqa in the near term?
    Mr. McGurk. So to Senator Rubio's question, which is an 
important one, it is about we recognize we have to have an Arab 
force that moves into these Arab areas to push on Raqqa. And 
when I was in Kobani in February, this was kind of just getting 
off the ground. One of the reasons I was in there was to talk 
about this operation, which at the time was the biggest 
operation we were going to do in Syria, on a town called 
Shaddadi, which is an Arab town. We organized a force then of 
about 6,000 or so. 2,500 of them were Arab, the first time we 
had a real inclusive mix. It turned out to be successful. That 
is one of the things that gave President Obama the confidence 
to increase our special forces capability inside Syria to 
organize these forces.
    Now, what is so important about Manbij is that the ratio is 
even reversed. So it is a mostly Arab force moving now on 
Manbij, a much more limited role for the Syrian Kurds. So it is 
kind of a model of what we would use ultimately to push down on 
Raqqa.
    The Americans who are working this on the ground every day 
in northern Syria--the reports I am getting. They are 
encouraged that as we are having success, more and more of 
these Arab leaders, the Arab tribal leaders, are coming to join 
this force. They want to be part of this push on Raqqa. And so 
right now, I think the trend line is good.
    But I would not underestimate how hard this is to pull 
these forces together, to organize them, to make them a 
cohesive unit to be able to push, together with our air 
support. However, from Shaddadi, which was a proof of concept, 
and now Manbij, I think we have hit on something that can work.
    The Chairman. I will ask you in private. I know you do not 
want to lay out a time frame for either Mosul or Raqqa, you 
know, being in Raqqa. I guess I was in Iraq just a few months 
before last June when we thought last June was going to be the 
time that we went into Mosul. Obviously, it is this June and we 
are still not ready. But I look forward to having that offline 
conversation.
    I know you are on your way to the White House. I do not 
know who the audience is there, but I would say again the fact 
that Assad is still killing people the day after humanitarian 
aid is being delivered does beg the question of what kind of 
force needs to be pressed against him to stifle the civil war. 
I mean, this is never going to be dealt with appropriately 
until that ends. It is evident that Russia and Iran have not 
had the effect on Assad that was contemplated when the 
cessation began. And I do hope you are able to talk to me after 
today a little bit more about what the thinking is in that 
regard.
    We thank you for your service to our country.
    The record will be open until the close of business on 
Thursday. Please answer the written questions that I am sure 
will follow as promptly as you can.
    Again, we thank you for your service. We appreciate you 
being here.
    And with that, the meeting is adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

            Responses to Additional Questions for the Record

           responses to additional questions for the record 
            submitted to brett mcgurk by senator marco rubio


    Question 1.  Are you aware of the identities of the State 
Department officers who signed the so-called ``dissent cable'' that was 
leaked to the press two weeks ago?

    Answer. I know some of them.


    Question 2.  Did any of them report to you and had any of them 
attempted to make their views known to you prior to signing this 
dissent cable?

    Answer. None of them report to me.


    Question 3.  Do you agree with their views and do you support their 
recommendations? If not, which of their recommendations do you disagree 
with?

    Answer. The issues surrounding the Syrian conflict are some of the 
most complicated in the world and among the hardest problems we have 
seen in some time. We have looked very closely at every angle of this 
issue and there are no easy solutions. The process has been rigorous, 
and we have fully considered a variety of ideas and their possible 
consequences. This is tough work that our diplomats pursue every day, 
to include how to defeat ISIL in Syria, Iraq and elsewhere. As the 
Secretary has said, no one is happy with the situation in Syria and we 
continue to assess our approach on how to bring about a cessation of 
hostilities, deliver unimpeded humanitarian access to all Syrians in 
need, and have a genuine political transition in accordance with the 
Geneva Communique.


    Question 4.  Last week, I spoke to Riad Hijab, the head of the 
Syrian Higher Negotiation Committee, who very persuasively argues that 
no solution to the crisis in Syria will be achieved until Bashar al-
Assad is removed from power. Do you disagree with Dr. Hijab?

    Answer. As the President has said, Asad has lost all legitimacy and 
has no place in Syria's future. His regime's brutality against his own 
citizens helps extremists like ISIL continue to recruit support.
    We believe Asad must go. The decisions for how that takes place 
must be made in the context of political negotiations among Syrians, 
under the auspices of the United Nations. We support the UN Special 
Envoy for Syria's ongoing efforts with the opposition led by Riad 
Hijab's High Negotiations Committee and the regime to gain agreement on 
a genuine political transition in accordance with the Geneva Communique 
of 2012. We are committed to a unified, pluralistic, and peaceful 
Syria.


    Question 5.  What is the United States currently doing to put 
pressure on the Assad regime? Don't we run the risk of endless 
negotiations with little to show for them due to our unwillingness to 
heed the advice of your State Department colleagues and apply some 
leverage to the Assad Government and its Russian backers?

    Answer. As President Obama has stated, Asad has no role to play in 
Syria's future, which must be determined through political negotiations 
among Syrians, under the auspices of the United Nations, aimed at 
achieving a genuine political transition in accordance with the Geneva 
Communique of 2012. We are committed to a unified, pluralistic, and 
peaceful Syria.
    How to achieve the objectives set out in Resolution 2254 is the 
subject of regular, frank strategic and tactical discussions within the 
Administration. There is no military solution to this conflict. Rather, 
we are working to bring about a political solution that includes a 
transition away from Asad.
    Through the International Syria Support Group, we work with over 25 
other countries and entities to implement UN Security Council 
Resolution (UNSCR) 2254, a roadmap to end the conflict in Syria. UNSCR 
2254 calls for a nationwide ceasefire and greater humanitarian access 
to millions of Syrians, in parallel with political negotiations between 
the Syrian opposition and government.
    The Secretary continues to press Foreign Minister Lavrov--who has 
stated that Russia has significant influence on the Asad regime's 
military actions--to act to relieve the needless suffering of the 
Syrian people.


    Question 6.  How many fighters does ISIL currently have under arms?

    Answer. On ISIL numbers specifically, we assess that ISIL fields 
approximately 19,000 to 25,000 fighters in Iraq and Syria, the lowest 
assessed range since we began conducting rigorous reviews of the 
group's manpower in 2014. This is down from a high end estimate of 
31,500 frontline ISIL fighters in Iraq and Syria based on all-source 
intelligence reports from May to August 2014. The decrease reflects the 
combined effects of battlefield deaths, desertions, internal 
disciplinary actions, recruiting shortfalls, Coalition efforts, and 
difficulties that foreign terrorist fighters face traveling to Syria.


    Question 7.  How many foreign fighters have traveled to Syria since 
ISIL swept through large portions of Iraq in 2014?

    Answer. Since 2011, nearly 40,000 fighters from more than 120 
countries have traveled to Syria and Iraq--including 6,900 with Western 
passports. Global efforts to counter foreign fighter flows are making 
progress, and we are seeing a drop in the number of fighters traveling 
to the conflict zones this year. In May during remarks at the 
International Special Operations Forces Convention, Assistant to the 
President for Homeland Security and Counterterrorism Lisa Monaco 
reported the flow of foreign fighters into Iraq and Syria is down 
significantly over the last year. In early June, during a statement 
delivered before the Senate Select Committee on Intelligence, Central 
Intelligence Agency Director John Brennan noted fewer foreign fighters 
are traveling to Syria.


    Question 8.  How many have now returned to their home countries?

    Answer. We rely on Intelligence Community assessments about the 
flow of foreign terrorist fighters (FTFs) and defer to them to provide 
more details--many of which are classified--on the basis for their 
assessment about the number of FTFs returning from the Middle East. The 
National Counterterrorism Center (NCTC) has a broad Center-wide effort 
to track foreign fighters traveling to Syria, working closely with 
Intelligence Community partners. As part of this effort, NCTC 
aggregates information on known or suspected terrorists traveling to 
Syria in the Terrorist Identities Datamart Environment (TIDE). This 
effort has created a valuable forum for identifying, tracking, and 
sharing information with law enforcement, counterterrorism, screening, 
and watchlisting communities on known or suspected terrorists. Forty-
one countries have passed new laws or updated existing legislation to 
more effectively identify and prosecute returning FTFs; 38 countries 
have reported arresting FTFs; and 30 have successfully brought charges 
in FTF cases.


    Question 9.  Is it correct to say, that Americans should expect to 
see more terrorist attacks inspired in some way by the perceived 
success of ISIL, as we've seen in San Bernardino and now in Orlando, 
yes or no?

    Answer. As ISIL continues to face military pressure and losses in 
Iraq and Syria, we expect it will continue its efforts to encourage and 
inspire attacks around the world. ISIL has used negative propaganda to 
inspire attacks in several countries around the world, and we recognize 
the difficulty security agencies face in disrupting lone offender 
attacks by individuals inspired by the group and other violent 
extremist organizations.
    We defer to DHS and FBI on the specifics of the threat as it 
pertains to the U.S. Homeland and of their threat mitigation efforts. 
The Department of State and our diplomatic missions work hand in hand 
with domestic security agencies to expand international efforts and 
cooperation to mitigate continued terrorist threats to the Homeland and 
U.S. interests overseas and to protect our borders. For example, our 
efforts to improve border security abroad and to exchange watchlisting 
information with our partners aim to stop terrorists from reaching our 
shores or from harming our key partners and Western interests. As a 
result, more international partners and air carriers are employing 
threat-based security and border screening requirements. We will 
continue to protect our borders, strengthen criminal justice system 
responses, and work with local partners to counter violent extremism 
that could potentially target the Homeland.


    Question 10.  Whatever the military gains in recent weeks in Iraq 
and Syria, do you think that the view among elements of the Muslim 
community, in the Middle East, and in Western societies, is that ISIL 
is winning or losing its current battles?

    Answer. Sixty-six partners have joined the United States in the 
Global Coalition to Counter ISIL, including Middle Eastern and Muslim 
majority countries such as Afghanistan, Jordan, Lebanon, Kuwait, 
Turkey, Saudi Arabia, and the UAE, among others. Together we share the 
same goal of degrading and ultimately defeating this horrific 
organization. Pew Research Center survey data collected in 11 countries 
with significant Muslim populations from April and May 2015 shows that 
populations in nearly all of these countries (Burkina Faso, Jordan, 
Indonesia, Israel, Lebanon, Malaysia, Nigeria, Palestinian territories, 
Senegal, and Turkey) express overwhelmingly negative opinions of ISIL. 
In addition, Pew Research Center data suggest there is support in 
Middle Eastern countries, such as Jordan and Lebanon, for U.S. actions 
against ISIL. The 2016 Arab Youth Survey tells us that nearly four in 
five young Arabs rule out any support for ISIL even if ISIL stopped 
using violence, and most believe it will ultimately fail to establish 
its vision of an Islamic state. As ISIL's so-called ``Caliphate'' loses 
money and territory and attracts fewer fighters, the terrorist 
organization is being put on the defensive. Mindful of the many 
challenges ISIL poses across multiple regions, the United States 
remains committed to sustaining this momentum.


    Question 11.  Don't you think that the fact that this non-state 
group has stood up to the world's greatest military and a coalition of 
more than sixty countries for two and a half years without losing 
control of their largest cities is a pretty impressive achievement that 
raises some questions about our seriousness in this fight?

    Answer. ISIL has not had a major battlefield victory in over a 
year. It has lost 47 percent of its territory in Iraq, and 20 percent 
in Syria. More important than percentages, however, is the strategic 
nature of the territory that ISIL has lost: nearly the entire border 
between Syria and Turkey, iconic cities like Ramadi, Tikrit, and 
Fallujah, and all the major transit points between Raqqa and Mosul, 
such as Sinjar, Hawl and Shaddadi. Loss of territory also equates to 
the loss of the tax base critical to sustaining the organization and 
funding external operations. ISIL's control of territory is also a 
basis for the group's self-declared legitimacy as a state. Denying it 
that territory directly denies it that legitimacy. ISIL's control over 
towns and cities provides it a base for planning and conducting 
external operations. A U.S. and Coalition-supported operation currently 
underway in northern Syria has isolated the city of Manbij, severing a 
major supply line to Raqqa and isolating an important external 
operations hub. In both Iraq and Syria we are now working with local 
partners to shrink this territory further, through a combination of 
military, political, and security measures.


    Question 12.  You may be aware of Osama bin Laden's 2001 comment 
that ``When people see a strong horse and a weak horse, by nature, they 
will like the strong horse.''


   Almost three years into this conflict, who do you think many 
        Muslims in the Middle East, as well as those around the world 
        who may be inspired by ISIL's apocalyptic worldview, view as 
        the ``strong horse,''--ISIL or the United States?


    Answer. With Coalition support, local forces have now recaptured 
from ISIL nearly 10,000 square kilometers of strategically significant 
territory in northeastern Syrian and nearly 30,000 square kilometers in 
Iraq. Financially, ISIL has been forced to cut its fighters' salaries 
in half and levy extortionate taxes on populations under its control to 
alleviate economic shortfalls. We have seen a significant reduction in 
the flow of foreign terrorist fighters entering Syria and Iraq each 
month. According to the 2016 Arab Youth Survey as well as polling 
conducted in the region, a majority of respondents in countries like 
Iraq, Syria, Libya, and Yemen consider ISIL to be a terrorist 
organization, and a majority of young Arabs believe ISIL will fail to 
successfully establish its vision of an Islamic state.


    Question 13.  What are we doing to change this ISIL narrative other 
than relying on often inadequate proxy forces to make painstakingly 
slow progress on the battlefield?

    Answer. Our counter-ISIL campaign has liberated at least one third 
of the territory ISIL once controlled in Iraq and Syria, reduced its 
manpower by over 10,000, denied it economic revenue, is isolating it 
from the outer world, removing its leadership from the battlefield, 
directly challenging its global narrative, and is degrading ISIL's 
eight official branches. The effects of our counter-ISIL campaign are 
reflected in the evolving ISIL global narrative. ISIL spokesman 
Muhammad al-Adnani for years described ISIL as a global, historic, 
expanding movement. His catchphrase was ``remain and expand''--
describing the territory under its control--and he promised ISIL would 
someday dominate the Middle East and ultimately control territory in 
southern Europe. Adnani's latest statement in May was quite different. 
No longer the confident voice of an expanding movement, he acknowledged 
that ISIL may lose its holdings in Iraq, Syria, and Libya, including 
its strongholds of Mosul, Raqqa, and Sirte. We are now working to 
ensure that his prediction comes true, and that Adnani himself--who 
also leads ISIL's external operations arm--is eliminated, and no longer 
able to spew his incitement.


    Question 14a.  Following the Obama Administration's long overdue 
determination that ISIL has been committing genocide against 
Christians, Yezidis and others in Iraq and Syria, what is the 
Administration's plan to ensure the safe resettlement and reintegration 
of ethnic and religious minorities into the homelands in Iraq?
    Answer. We are committed to assisting people of all ethnicities, 
religions, and nationalities who are fleeing persecution and violence. 
Voluntary return is often the durable solution preferred by refugees 
and displaced persons. The United States supports voluntary 
repatriation when refugees and internally displaced persons (IDPs) can 
do so in safety and dignity, and in fact many Iraqis from a broad range 
of ethnic and religious backgrounds inform us that that is their first 
choice. We believe that refugees and IDPs should be permitted to 
integrate locally into their places of displacement if returns are not 
feasible. Resettlement to third countries is the last resort, and it 
can only apply to a very small percentage of displaced persons each 
year.
    U.S. humanitarian assistance in Iraq benefits the displaced as well 
as host community members in urban areas and camps and informal 
settlements, as U.S.-funded humanitarian agencies support local 
infrastructure, including schools, medical clinics, and sanitation 
infrastructure. U.S.-supported agencies are also conducting quick-
impact projects, such as repairs to wells, garbage collection, and 
livelihoods initiatives that strengthen communities' resilience in the 
face of sustained trauma. These projects provide hope for the 
vulnerable, both the displaced and host community members, that there 
is a future for their communities in Iraq once the present conflict has 
subsided and that there are reasons to return home.
    The United States has provided more than $15 million to the United 
Nations Development Program (UNDP)-managed Funding Facility for 
Immediate Stabilization (FFIS). Based on priorities identified by the 
Government of Iraq and local authorities, FFIS programs provide 
immediate assistance to areas liberated from ISIL, and these projects 
complement ongoing Iraqi government efforts. By repairing public 
infrastructure, providing grants to small businesses, boosting the 
capacity of local government, promoting civil engagement and community 
reconciliation, and providing short-term employment through public 
works schemes, FFIS helps ensure initial services and stability to 
promote returns of displaced persons. Through the efforts of the 
Government of Iraq, and with the support of UNDP, the United States, 
and the Coalition, nearly 100 percent of the pre-ISIL population has 
returned to Tikrit, and more than 750,000 people have returned home to 
liberated areas throughout Iraq.
    In addition to humanitarian assistance, since 2008, the U.S. 
government has provided more than $100 million for a variety of efforts 
in Iraq that include promoting respect for rights of members of 
minority groups and interfaith tolerance, community stabilization, 
conflict mitigation, and cultural preservation. The Department of State 
has worked to promote respect for the human rights of persons belonging 
to religious minorities, including through increased engagement and 
staffing of the Office of International Religious Freedom; the work of 
Special Advisor for Religious Minorities in the Middle East and South 
and Central Asia Knox Thames; and increased foreign assistance 
programming focused on advocating for and promoting religious freedom 
around the world.


    Question 14b.  Does the Administration consider the return of 
ethnic and religious minorities to their homelands a critical component 
toward achieving a safe, secure, and sovereign Iraq?

    Answer. Creating the conditions that allow for the safe, dignified, 
and voluntary return home of all Iraqis displaced by ISIL, including 
ethnic and religious minorities, is a critical element of long-term 
stability in Iraq. Members of ethnic and religious minorities in Iraq 
regularly tell us that they want to return to their ancestral homelands 
if it is safe for them to do so. To help achieve this objective, the 
United States has emphasized stabilization of areas liberated from 
ISIL, which entails the deployment of trusted local security, the 
restoration of basic services like electricity and water, and the 
refurbishment of health clinics and schools.
    The United States has supported stabilization efforts through 
UNDP's Funding Facility for Immediate Stabilization, which channels 
funds to rapid projects prioritized by local leaders and UNDP. On July 
20, the United States will co-host a Pledging Conference in Support of 
Iraq, which will generate hundreds of millions of dollars in 
contributions for stabilization, as well as significant contributions 
towards humanitarian assistance. Recognizing that preservation of 
ethnic and religious minorities in Iraq cannot be sustained without the 
widespread understanding of their inherent value within Iraqi society, 
the United States supports programs centered on advocacy for key issues 
that impact minority communities and programs that promote 
reconciliation, stabilization, inclusiveness, and equitable and 
representative political participation.
    The United States will continue to press the Government of Iraq and 
the Kurdistan Regional Government--to permit the voluntary return of 
all displaced persons and to ensure that any security screening 
processes for returnees, as well as the newly displaced, are 
transparent and humane.
    To promote long-term stability, the United States has supported 
Prime Minister Abadi's efforts to decentralize federal authorities, 
giving local communities greater influence over their governance. In 
addition, the United States will support Government of Iraq efforts to 
hold accountable those who committed atrocities against ethnic and 
religious minorities.


    Question 14c.  What is the Administration doing to train and assist 
local forces, including Yezidi and Christian militias, so that they can 
help defend their home communities once they are recaptured?

    Answer. The United States is committed to helping Iraq build a 
strong, capable security force that represents Iraq's ethnic and 
religious diversity. Prime Minister Abadi has made it a policy priority 
to enroll thousands of local fighters into the Popular Mobilization 
Forces (PMF) and increase the recruitment of Sunnis and other 
minorities into the Iraqi Security Forces, and we support him in these 
efforts.
    The United States, through the Government of Iraq, has supplied 
equipment to Sunni PMF units at a steady rate over the past year. This 
includes rifles and machine guns, anti-armor weapons, ammunition, 
vehicles, body armor, and uniforms. Christian PMF units and Christian 
volunteers associated with the Peshmerga, including the Ninewa Plains 
Protection Force, have received equipment and ammunition from both the 
Government of Iraq and the Kurdistan Regional Government (KRG). To 
date, Christian forces have received hundreds of rifles, sniper rifles, 
and light machine guns, tens of thousands of rounds of ammunition, and 
hand grenades. Additional equipment is scheduled to arrive in time to 
support local fighters prepare for the impending Mosul offensive.


    Question 15a.  Many U.S. partners and even local citizens have 
raised concerns about our reliance on the Syrian Kurdish YPG forces as 
our partner in Syria.


   What is your response to those that worry about the long-term 
        agenda of this partner that we have decided to work with in 
        northern Syria?


    Answer. Sustainability of counter-ISIL gains is integral to the 
campaign. That is why we are working with the Government of Iraq to 
recruit local Sunnis in Anbar and Ninewa who will comprise the local 
hold forces that secure terrain liberated from ISIL. In Syria, the 
Syrian Democratic Forces (SDF), a Syrian alliance comprising Syrian 
Kurds, Arabs, Turkmen, including Sunni Muslims and Christians, has 
liberated thousands of square kilometers of northern and northeastern 
Syria from ISIL. In February, a 40 percent Arab SDF force seized 
Shaddadi, liberated it from ISIL, and has held it since. For that 
operation I personally engaged SDF leadership and my DoD colleagues 
worked daily with SDF commanders to ensure the correct force 
composition. Since the end of May, we have supported an SDF operation 
to isolate and seize Manbij in northern Syria. The SDF force conducting 
this operation is over 80 percent Arab, mostly from the local area, and 
is fighting to free their hometowns. This is a core premise of our 
strategy for liberating territory: we want local people, with local 
knowledge, in the operations to free their communities from ISIL, and 
stabilize the areas after ISIL is gone.


    Question 15b.  What is the State Department doing to complement the 
U.S. military's engagement of the YPG with outreach to other members of 
Syrian Kurdish civil society?

    Answer. In Iraq and Syria our work is predicated on the 
understanding that inclusive and representative governance is essential 
to serving local communities and empowering them to resist ISIL. This 
conviction guides our interactions with local actors, including 
governing officials. We complement this approach with engagement at the 
local level to assess the needs of communities, including in majority-
Kurdish areas of northern Syria.


    Question 16a.  What role is the U.S. playing in finding more donors 
to get involved in solving this humanitarian crisis?

    Answer. Since January 2014, more than 3.3 million Iraqis have 
become internally displaced due to ISIL-related violence and Iraqi 
efforts to retake territory from extremist control. The United States 
is the single largest donor to the Iraq humanitarian response, having 
provided more than $778 million for vulnerable Iraqis since FY 2014. In 
light of recent events in Iraq, the U.S. announced an additional 
contribution of $20 million in humanitarian assistance on June 21. 
However, the United States cannot be the only donor responding to this 
crisis. To that end, we regularly discuss Iraq's humanitarian needs 
with our international partners, highlighting the needs identified in 
the UN's 2016 Iraq Humanitarian Response Plan, as well as individual 
appeals issued by the UN and other international organizations. On July 
20, the United States will co-host with Germany, Canada, and Japan a 
pledging conference for Iraq in Washington that seeks to raise 
substantial new humanitarian contributions, in addition to 
stabilization and demining funds. We expect to announce a significant 
new humanitarian assistance contribution at the conference, and these 
funds will be available for response to the expected humanitarian needs 
following the Mosul operation.


    Question 16b.  Is the Iraqi government providing appropriate 
resources in Fallujah to address this humanitarian situation?

    Answer. The Government of Iraq is facing an economic crisis 
following the recent downturn in oil prices. The Government of Iraq 
allocated $10 million for the immediate response to the Fallujah 
displacements, and it manages several camps for internally displaced 
persons on the outskirts of Ameriyat al Fallujah and Habbaniya 
Touristic City, two Anbar cities that were hosting IDPs from previous 
displacement in the province. Nonetheless, the Government of Iraq will 
rely on extensive resources from the international community to help it 
address the immense humanitarian crisis it is facing, even before the 
anticipated liberation of Mosul. In Fallujah, the speed with which the 
June military offensive on Fallujah unfolded surprised both the 
humanitarian community and the UN system in Iraq, delaying the 
provision of immediate relief items to the 85,000 internally displaced 
persons (IDPs) who fled Fallujah and its suburbs.
    The humanitarian agencies operating in Anbar province were still 
not fully prepared for the Fallujah response, due to a combination of 
funding shortfalls, access challenges, security threats, and limited 
staff surge capacity. The Government of Iraq, the United States, other 
donors, and the humanitarian community are taking the lessons learned 
in the Fallujah response in order to be more prepared for the expected 
offensive on Mosul in coming months.


    Question 17.  Lieutenant General Thomas Waldhauser who has been 
nominated by President Obama to be Commander of the U.S. Africa Command 
at his confirmation hearing on June 21, 2016 before the Senate Armed 
Services Committee stated that the Administration does not have an 
overall grand strategy with regard to Libya and specifically against 
the growing threat from ISIL.


   Do you agree with that assessment?


    Answer. No, I do not agree. We do have a strategy in Libya centered 
on U.S. diplomacy playing a leading role in assembling a robust 
international coalition to support our interests in a unified and 
stable Libya. Our approach is closely linked with a broader 
international effort and organized around four components:


 1. Advancing implementation of the Libya Political Agreement (LPA);

 2. Promoting stability and civilian security;

 3. Countering terrorism and violent extremism; and

 4. Stimulating the economy and improving humanitarian conditions.


    Some elements of this strategy are military, including strikes when 
we have identified a threat to U.S. interests or security, but the 
overarching strategy is larger than that. It is founded on our 
assessment, which is shared with a great number of international 
partners, that the only hope for long-term stability and security in 
Libya is a unified national government. It is fundamental, therefore, 
that our political and counterterrorism engagement be mutually 
reinforcing.
    The U.S. Government has helped to actively advance the Libyan 
political process, support Prime Minister Fayez al-Sarraj's Government 
of National Accord (GNA) and the LPA, and promote security in Libya and 
the Maghreb and Sahel region. The United States supports the 
aspirations of the Libyan people for a united, inclusive, and 
responsive national government after 42 years of authoritarian misrule 
and the challenges and divisions Libya has faced since the 2011 
revolution. U.S. diplomatic support for the political process led by UN 
Special Representative of the Secretary General (SRSG) Martin Kobler 
has contributed to key Libyan political milestones, including the 
signing of the LPA in December 2015, the Libyan House of 
Representatives' vote to approve the LPA on January 25, and the arrival 
of Prime Minister al-Sarraj and the Presidency Council of the GNA in 
Tripoli on March 30.
    Since the GNA entered Tripoli, Prime Minister al-Sarraj has 
undertaken a series of steps to stabilize the country, including 
measures to form a Presidential Guard, establish a joint command to 
combat ISIL, and ensure that ministries and acting ministers can get to 
work to serve the Libyan people, pending formal action by the Libyan 
parliament. Along with our international partners, the United States is 
supporting Prime Minister al-Sarraj's government as it combats ISIL, 
and takes steps to re-establish effective governance, restore 
stability, and address Libya's security, economic, and humanitarian 
challenges.
    Secretary of State John Kerry and Italian Foreign Minister Paolo 
Gentiloni co-hosted a Ministerial on Libya May 16 in Vienna to solidify 
international support behind Prime Minister Fayez al-Sarraj's 
government, particularly on security. At the Vienna Ministerial, four 
international organizations and 21 countries reiterated the 
international community's commitment to support the GNA as Libya's sole 
legitimate recipient of international security assistance. We support 
Prime Minister al-Sarraj's efforts to build an inclusive national 
security architecture.
    We continue to urge all Libyan forces to enhance coordination and 
implement a unified command to direct the fight against ISIL in Libya. 
We are ready to respond to the Libyan government's requests to train 
and equip vetted, GNA-aligned forces from throughout Libya. The UN arms 
embargo allows for the GNA to request exemptions for the weapons it 
needs to secure the country and to combat ISIL. The GNA has voiced its 
intention to submit appropriate arms embargo exemption requests to the 
UN Libya Sanctions Committee to procure necessary lethal arms and 
materiel to counter UN-designated terrorist groups and to combat ISIL 
throughout the country. We will fully support these exemption efforts 
while continuing to reinforce the UN arms embargo to prevent transfer 
of illicit arms to Libya and prevent acquisition of arms by non-state 
actors.
    We continue to assess ISIL activity in Libya and work with our 
partners to determine the best way to counter ISIL. As President Obama 
has made clear, we will not hesitate when it comes to defending U.S. 
national security interests and we have undertaken direct action 
against ISIL in Libya, when necessary. Ultimately, defeating ISIL will 
require that the GNA fill the political and security vacuum in Libya. 
The GNA will need the support of the United States and international 
community to be successful in this effort, and we have undertaken wide-
reaching efforts to ensure its success.


    Question 18.  Are we allowing ISIL and its over 5,000 fighters in 
Libya to establish a stronghold that will be difficult for a new, 
fragile government in Libya to address?

    Answer. Our counterterrorism policy in Libya is focused on 
degrading ISIL and other violent extremist groups and reducing the 
threat they pose to U.S. interests in North Africa and Europe. The 
United States and international community need to bolster Libya's unity 
government as a partner to most effectively counter the threat of ISIL 
in Libya. ISIL exploits ungoverned areas and an effective, unified 
central Libyan government is the best defense against any terrorist 
threat. While Prime Minister Fayez al-Sarraj's Government of National 
Accord remains fragile, it has already taken courageous steps to 
confront ISIL and taken back significant territory. We must provide it 
with our full support.
    In Libya as elsewhere, President Obama has demonstrated his 
willingness to take action wherever our interests are in danger. In the 
past year the United States has conducted direct action against several 
terrorist targets in Libya: our June 2015 strike targeted Al-Qaida-
affiliated Algerian Mokhtar Belmokhtar; our November 2015 strike killed 
Iraqi national and senior ISIL figure in Libya Abu Nabil al-Anbari; and 
our February 19 strikes took out a ISIL training camp and a foreign 
fighter facilitator in western Libya. We also are focused on disrupting 
the links between the ISIL branch in Libya and the core group in Iraq 
and Syria. The Global Coalition to Counter ISIL has committed to a 
concerted push to halt the flow of foreign fighters to Libya, disrupt 
ISIL finances there, and counter and defeat its destructive message.
    Since late May, an offensive by GNA-aligned forces on the city of 
Sirte has made important gains. We continue to call on all armed actors 
in Libya to coordinate their efforts under the GNA's command.
    As Secretary Kerry, 20 other countries, and four international 
organizations made clear at the May 16 Libya ministerial in Vienna, we 
support the efforts of Prime Minister al-Sarraj's government to 
establish civilian command and control over an inclusive, national 
Libyan military.
    The GNA announced in April that it would form a joint command to 
coordinate counter terrorism efforts. It has since formed four regional 
operations rooms focused on the fight against ISIL and other terrorist 
groups. These decisions have enabled GNA-aligned forces to make 
substantial progress against ISIL in and around its stronghold of 
Sirte.
    The United States and our international partners affirmed in the 
May 16 Vienna Communique that the GNA is the sole legitimate recipient 
of international security assistance to Libya and that the 
international community will support the GNA by providing security 
assistance to counter UN-designated terrorist groups throughout the 
country. By providing assistance to forces under the GNA's command and 
reinforcing the UN arms embargo to ensure weapons do not go to other 
groups, we can help empower Prime Minister al-Sarraj to build the 
unified, inclusive, civilian-controlled, and capable security forces 
that Libya requires.


                               __________

           responses to additional questions for the record 
           submitted to brett mcgurk by senator barbara boxer


    Question 1.  I understand that the Administration is in the process 
of negotiating a memorandum of understanding to provide $415 million in 
assistance to the Kurdish Peshmerga forces for their fight against 
ISIL. Can you provide an update on the status of those negotiations for 
this MOU? When do you hope to conclude it?

    Answer. The United States has substantially increased assistance to 
the Peshmerga in support of operations to defeat ISIL and liberate 
Mosul. We recognize the severe budget crises affecting both the 
Government of Iraq (GOI) and the Kurdistan Regional Government (KRG). 
To help the KRG address the crisis, DoD stepped up assistance to 
Peshmerga fighters. Sixty-five million in immediate assistance, 
including food, bulk medical supplies, fuel, and ammunition began 
moving to Erbil in early May. An additional $415 million is on track to 
be dispensed later this summer. This additional funding will provide 
stipends, food, fuel, ammunition, medical equipment and other 
assistance for Peshmerga fighters. Under authority provided by the Iraq 
Train and Equip Fund, assistance will be provided by, with, and through 
the Government of Iraq.


    Question 2.  More broadly, how are we working with Iraq's central 
government to ensure that the Kurds are getting the weapons and 
equipment they need in a timely manner? Specifically, are there delays 
in the shipments of weapons and supplies from Baghdad to Erbil, and if 
so how is the Administration working to address this problem?

    Answer. There is no delay in the shipments of weapons and supplies 
from Baghdad to Erbil. We expedite equipment deliveries to the Kurds, 
and Baghdad has neither prevented nor delayed the delivery of equipment 
to the Ministry of Peshmerga in Erbil. On the contrary, it has 
supported a coalition effort that has provided the Peshmerga with 
thousands of tons of ammunition and equipment cost-free. While aircraft 
carrying weapons and equipment destined for Erbil do stop in Baghdad 
for inspection, this usually adds less than a few hours to the transit 
time.
    Coordination between Baghdad and Erbil has proven critical in the 
campaign--Baghdad provided the first flights of ammunition to the 
Kurdistan Regional Government after the fall of Mosul in 2014, and the 
Ministry of Defense has committed to directing a portion of the FMF 
loan to meet the needs of Kurdish forces.
    Coordinating U.S. military assistance through the central 
government is required by both Iraqi and international law and helps 
demonstrate our commitment to a sovereign and independent Iraq. It is 
also essential to the lasting defeat of ISIL.
    Thousands of Peshmerga have received training at Coalition Building 
Partner Capacity (BPC) sites in Iraq. In addition, the United States 
and the Coalition have provided the Peshmerga with tens of millions of 
dollars in ammunition; weapons including rifles, anti-tank systems, and 
high-caliber machine guns; counter-IED equipment; and vehicles, 
including ambulances and mine resistant vehicles.


    Question 3.  Countering ISIL's apocalyptic message, which promises 
heaven in exchange for mass murder, is perhaps a more complicated 
challenge than defeating ISIS on the battlefield. Can you describe the 
State Department's work to counter ISIL's propaganda online?

    Answer. Countering ISIL's propaganda online is a complex issue that 
needs to be done in accordance with the Department of State's 
counterterrorism, human rights, and cyber policies, as well as taking 
into account the government's engagement with the private sector 
regarding the use of their platforms for violent extremist propaganda 
and other content that may be protected under U.S. law. We believe that 
we can most effectively counter violent extremists' propaganda on the 
Internet by contesting terrorist narratives and worldviews through 
competitive or alternative messages--and by building the capacity of 
other credible voices internationally to do so.
    Leading that effort is the Global Engagement Center (GEC), an 
interagency entity, housed at the State Department, which coordinates 
U.S. counterterrorism messaging to foreign audiences abroad. The work 
of the GEC is focused around four core areas: 1) building and 
empowering a global network of partners who message against violent 
extremism, 2) developing and procuring thematic guidance and content 
that partners can use to inform their messaging, 3) using data 
analytics from both the public and private sectors to inform our 
messaging efforts and measure our effectiveness, 4) and coordinating 
these efforts across the many U.S. national security agencies that 
operate in the information space.
    The GEC runs collaborative, thematic campaigns with counter-ISIL 
coalition nations and other partners to effectively counter and offer 
an alternative narrative to ISIS's propaganda. For example, ISIS claims 
that it is invincible. In response, the GEC's digital outreach teams 
(disseminators of messaging) work in conjunction with our Coalition 
partners to highlight ISIS's territorial losses and other information 
that counters their claims. The GEC also curates and creates content 
from the open source media environment which is then shared with U.S. 
government and Coalition partners.
    The GEC's foreign language messaging staffers are multilingual with 
extensive educational and/or professional experience in their countries 
of focus. As a result, the staff is uniquely qualified to understand 
the political, social, and cultural backgrounds of the societies to 
which they are messaging. This expertise is used to inform broader 
messaging efforts and campaigns.
    Countering violent extremist messaging is an important part of our 
broader strategy to counter violent extremism (CVE). We must also work 
closely and creatively with communities, civil society, and the private 
sector. Several bureaus at State, including the Bureau of 
Counterterrorism and Countering Violent Extremism (CT), Public Affairs 
(R), and the regional bureaus design, fund and implement capacity 
building programs to empower credible voices to counter ISIL's and 
other violent extremists' messages, among other CVE efforts. Engaged 
citizens, communities, and civil and religious groups can also play an 
essential role in developing counter narratives. Well-informed and 
empowered families, communities, and local institutions represent the 
best defense against terrorist ideologies.
    There is also a role for governments to play in working with the 
private sector and civil society on a voluntary basis to discourage the 
use of the Internet to promote violent extremism and to encourage 
positive counter narratives


    Question 4.  How effective are our efforts to counter ISIL's online 
propaganda? How are we working with partner governments and NGOs?

    Answer. The information campaigns of the GEC and its predecessor, 
the CSCC, against ISIL, in addition to violent extremist account 
suspensions by social media service providers, and ISIL's battlefield 
losses have contributed to a significant decline in ISIL's online 
propaganda activities since 2014.


   GEC's information campaigns and building of partners' capacity have 
        contributed to a strong anti-ISIL movement online, which this 
        year out numbers ISIL at a ratio of roughly 6 to 1 on Twitter, 
        according to data obtained by The Associated Press.

   GEC's information campaigns regularly surpass industry-standard 
        rates of engagement, indicating strong performance and public 
        interest in anti-ISIL messaging.

   Battlefield losses have forced ISIL to modify its propaganda 
        narratives and dissemination methods, resulting in less 
        propaganda and weakened claims of an ascendant caliphate.


    Additionally, various U.S. government departments and agencies have 
engaged with a range of key technology companies to inform and 
encourage companies' voluntary efforts to counter ISIL and other 
terrorist groups online and determine how best to build partnerships to 
address the use of the Internet for terrorist purposes.
    As part of this effort to counter ISIL's online propaganda, the GEC 
assists in building, empowering, and maintaining a global network of 
credible voices to interrupt and undermine violent extremist 
recruitment and narratives, and mitigate the emergence of new violent 
extremist organizations and affiliates. This is achieved through 
partnership building with non-government organizations, to include 
civil society, media outlets, and private sector companies. As we work 
with non-government partners, we also work with partner governments who 
are undertaking similar efforts as part of the Counter-ISIL Coalition. 
The GEC coordinates messaging efforts across the Coalition through its 
input to messaging themes and narratives provided to the Office of the 
Special Envoy to Counter ISIL and the Coalition Communications Cell, to 
ensure that there is consistency and unity in U.S. government and 
partner nation messaging efforts. ISIL's propaganda presents a global 
challenge and calls for a global solution. We are working with partners 
in the UK, the UAE, and Malaysia to provide a localized focus to 
counter ISIL's destructive narrative. I have visited the Sawab Center 
in the UAE, where dynamic young people work to implement messaging 
campaigns on themes such as national pride, family cohesion, and ISIL's 
inability to govern. Providing an alternative to ISIL's message and 
preventing radicalization will continue to be essential to this fight.


    Question 5.  What is the status of planning for the Mosul 
offensive? What is the next phase of the Iraqi military's campaign 
against ISIS?

    Answer. We are working closely with the Government of Iraq as it 
plans the operation to retake Mosul. After the liberation of Fallujah, 
Prime Minister Abadi announced that Mosul was the next major operation. 
Shaping operations have been underway for a few months, with Iraqi 
Security Forces, including Kurdish Peshmerga, maneuvering to set the 
conditions for the encirclement and ultimate liberation of Mosul. The 
U.S. will continue to provide advice and assistance throughout the 
military campaign, but the Government of Iraq is ultimately responsible 
for determining the next phase in the operation.


    Question.  How are we working with the Iraqi Government to ensure 
that Iraq is holding areas wrested from ISIS's control?

    Answer. The Iraqi government understands that only through 
improving security, stabilization, and reconciliation can it ensure the 
long-term defeat of ISIL. The United States is a key partner in all of 
these efforts.
    Once a city is liberated, United States and Coalition advisors 
continue to work with the Iraqi Security Forces (ISF) to ensure 
adequate security and provide intelligence support. The United States 
and Coalition partners are training and equipping ISF entities 
responsible for securing liberated areas to prevent the return of ISIL 
fighters. These ``hold forces'' are generally comprised of local police 
supported by Popular Mobilization Forces from the area.
    Stabilization of liberated cities allows displaced Iraqis to 
quickly return and begin to rebuild. The United States has provided 
over $15 million to the United Nations Development Programme's (UNDP) 
Funding
    Facility for Immediate Stabilization (FFIS), which is the main 
Coalition mechanism for immediate stabilization. Based on priorities 
identified by the Government of Iraq and local authorities, FFIS 
activities repair light infrastructure, provide small grants to 
businesses, assist local government with recovery, promote community 
reconciliation, and provide short-term employment through public works 
schemes, such as rubble clearing. These stabilization projects lay a 
foundation for reconciliation and prevent the return of ISIL by 
demonstrating support to those communities most impacted by the 
fighting.
    Long-term reconciliation is in the hands of the Iraqi people and is 
the key to preventing the return of ISIL. The United States is working 
with the GOI to promote inclusive governance that respects minority 
rights and does not discriminate based on sect or belief.


    Question 7.  How effective are our current training missions to 
rebuild the Iraqi military?

    Answer. Our efforts are not to rebuild the Iraqi military, but 
rather to regenerate forces through targeted training, equipping, and 
advising. More than 30,000 members of the Iraqi Security Forces (ISF), 
including Iraqi Kurdish Peshmerga and Sunni Popular Mobilization Force 
(PMF) personnel, have received training, equipment, or other support 
from the Coalition. However, the best measure of effectiveness is not 
training metrics, but battlefield success. Since May of 2015, the ISF 
have not only prevented ISIL from seizing territory, but have retaken 
nearly 50 percent of the land that ISIL held at its height, including 
the cities of Ramadi, Fallujah, Sinjar, Hit, Tikrit, and Rutbah. Iraqi 
forces are currently undertaking shaping operations to liberate Mosul--
Iraq's second largest city. With every victory the ISF has regained the 
confidence and morale needed to maintain an effective military. This 
has been and will remain an Iraqi fight, but the Coalition training 
mission has been critical to ensuring the Iraqis have the capability to 
take their country back from ISIL.


    Question 8.  Can you provide an update on the coalition's ``five 
lines of effort''?

    Answer. Representing the basic Counter-ISIL Coalition lines of 
effort, the Coalition's Working Groups seek to enhance coordination and 
share best practices. (Humanitarian assistance is led by the United 
Nations.) To the fullest extent possible, they draw on the activities 
of pre-existing multilateral fora and organizations, without creating 
duplicative structures and processes, and encourage a prominent role 
for countries most directly affected by ISIL, especially Arab and 
majority-Muslim states. Each has an Action Plan that outlines specific 
objectives, resource needs, key challenges and measures of performance. 
Working Groups are active in the following areas:
Coordinating Military Support
    As a terrorist group with a unique military and networking 
capacity, ISIL represents a significant threat to the global community. 
In exercise of the inherent right of self-defense, including the 
collective self-defense of Iraq at Iraq's request, Coalition members 
are contributing to a dynamic campaign led by the U.S. Central Command 
to deny ISIL safe-havens in Iraq and Syria, disrupt its ability to 
project power, and build partner capacity. To support this effort, the 
U.S. Department of Defense has established a secretariat that 
facilitates political-military consultations and holds meetings as 
needed.
Disrupting the Flow of Foreign Terrorist Fighters
    An unprecedented number of Foreign Terrorist Fighters (FTF) have 
traveled to Iraq and Syria, many of whom joined ISIL. In response, this 
Working Group draws extensively on the work of the Global Counter-
Terrorism Forum (GCTF), the UN, and efforts to implement UNSC 
Resolution 2178 and the GCTF Hague-Marrakech Memorandum, in accord with 
the security measures spelled out in the European Union's Syria and 
Iraq foreign terrorist fighters strategy adopted on October 20, 2014. 
The Working Group focuses on key lines of intervention including: 
identifying current and potential national and transnational 
recruitment and facilitation networks; promoting intensified and 
accelerated exchange of information on FTF travel and routes; 
facilitating effective communication and a swift flow of information 
between Coalition members; discouraging individuals from traveling to 
participate in the Iraq/Syria conflict on ISIL's behalf; criminalizing 
FTF activities and enforcing laws to counter them; disrupting the 
travel of aspiring or returning fighters; and as appropriate 
prosecuting and/or rehabilitating and reintegrating FTFs upon their 
return to home countries. We stress the need to strengthen cooperation 
at the international, regional, sub-regional and national levels to 
effectively prevent and counter terrorism.
Disrupting ISIL's Financial Access and Economic Sustainment
    Understanding and sharing information on ISIL's financial and 
economic activities, and focusing international efforts to counter 
those activities are indispensable in ensuring ISIL's ultimate defeat. 
This Working Group focuses on preventing ISIL's use of the 
international financial system; countering its extortion and 
exploitation of economic assets and resources, including oil smuggling 
and looting of cultural and archeological goods; denying it funding 
from abroad, including from external donors, foreign terrorist fighter 
financing, and kidnapping for ransom; and preventing it from providing 
financial or material support to other terrorist groups. The working 
group promotes existing recommendations of the Financial Action Task 
Force (FATF), supports the implementation of UN Security Council 
Resolutions 2161, 2170 and 2199, and considers, coordinates and 
incorporates initiatives in other fora (e.g., the G7, G20, Egmont Group 
and INTERPOL).
Developing Narratives to Counter ISIL
    ISIL exists in both the physical and information spaces; its 
narrative is a threat in itself. This Working Group supports efforts to 
expose the bankruptcy of ISIL's ideology and present a balanced 
alternative narrative that enhances social resilience against extremist 
propaganda and presents a vision of hope for a better future. It 
supports and empowers credible and independent community, political, 
economic, religious and educational leaders to get their messages out 
via both traditional and social media. The group plans and executes 
cooperative projects such as joint messaging centers, professional 
exchanges, sharing of research, conferences and public events, while 
promoting best practices and consistent messaging by Coalition members.
Providing Stabilization Support
    Civilian security is essential to success in reclaiming territory 
from ISIL. This Working Group has worked to strengthen Iraq's local, 
provincial and national authorities and is looking at appropriate ways 
to assist liberated areas in Syria. The focus has been on immediate 
stabilization--i.e., the first 60 to 90 days after the end of combat 
operations--with a goal of laying the foundations for lasting stability 
and creating the conditions for the safe and voluntary return of 
displaced persons. The group works closely with the Baghdad-based 
Stabilization Task Force. It aims at mobilizing international support 
for local officials and security forces in developing plans and 
instruments for immediate recovery; and for efforts to advise and 
assist with civilian planning, police and local governance, and re-
establishing essential services.


    Question 9.  Specifically, please describe the coalition's efforts 
to stop ISIL's funding and financing. What are ISIL's major remaining 
sources of revenue, and what can the United States do to cut off those 
revenue streams?

    Answer. The United States and the Global Coalition to Counter ISIL 
have made significant progress in recent months disrupting ISIL's 
financial and resource networks, and we are seeing the results of these 
efforts on the ground. ISIL has cut salary payments to its fighters in 
Raqqa by 50 percent, leading many ISIL fighters to defect and leave the 
battlefield. ISIL has struggled to fulfill its various governance 
obligations such as basic services to Iraqi and Syrian citizens in 
ISIL-controlled territory due to stretched finances. ISIL has also 
increasingly resorted to the theft of property and arbitrary ``tax'' 
increases to make up the funding gap. Finally, we have seen 
increasingly frequent incidents of corruption within ISIL's ranks as 
funds have diminished.
    Despite these recent signs of progress, however, the sources of 
ISIL's revenues make it an unusual counter-terrorist financing 
challenge. ISIL likely made around $500 million in 2015 from oil and 
gas sales and about $350 million from extortion. In addition to those 
two large revenue streams, ISIL made at least several million from 
foreign donations in 2014 and in 2015, between $20 and $45 million from 
kidnapping for ransom in 2014 but less in 2015, and less than $10 
million from trafficking in antiquities.
    Our most effective method of disrupting ISIL's revenues to date has 
also been one of the most atypical counter-terrorist finance tools: 
military airstrikes against ISIL-controlled oil and gas facilities and 
cash storage sites. Operation TIDAL WAVE II, launched in October 2015, 
targets ISIL's entire oil and natural gas supply chain and has reduced 
ISIL's ability to exploit oil and natural gas for profit in Iraq and 
Syria. Coalition airstrikes against ISIL's cash storage sites have also 
reduced liquidity in ISIL-controlled territory in northern Iraq by at 
least tens of millions and possibly up to hundreds of millions of 
dollars.
    Kinetic efforts have complemented diplomatic efforts to build a 
coalition of countries to disrupt ISIL's finances. In March 2015, the 
United States established the Counter-ISIL Finance Group (CIFG) to 
serve as the Global Coalition to Counter ISIL's working group on ISIL 
finance. Co-chaired by the United States, Saudi Arabia, and Italy, the 
CIFG includes 39 members and observers focused on disrupting ISIL's 
financial networks and limiting its ability to exploit resources in 
territory it controls. The CIFG has met five times and plans to meet 
again later this year in Kuwait.
    The United States and its Coalition partners have also led efforts 
at the United Nations to strengthen the international framework for 
combatting ISIL's financial and facilitation networks. UN Security 
Council Resolutions (UNSCRs) 2199 and 2253, in particular, strengthened 
the UN Security Council's ISIL and Al Qaeda Sanctions regime and 
obligated all countries to prevent direct or indirect support for ISIL 
through the illegal sales of oil and historical artefacts and through 
kidnapping for ransom. The United States and Coalition partners also 
continue to nominate ISIL leaders and facilitators to the UN Security 
Council's 1267/1989/2253 ISIL and Al Qaida Sanctions List to disrupt 
ISIL's ability to raise and transfer funds. In addition to our 
international sanctions, the Departments of State and Treasury have 
domestically sanctioned a number of ISIL leaders, financiers, 
facilitators, and branches under the Immigration and Nationality Act 
and Executive Order 13224.
    The United States bilaterally engages key countries in the Middle 
East and around the world to complement our multilateral engagement. 
Our Embassy in Baghdad worked closely with the Government of Iraq to 
decrease liquidity in ISIL-controlled territory to prevent ISIL from 
profiting from extortion and ``tax'' collection. The Government of 
Iraq's August 2015 decision to suspend government salary payments to 
ISIL-controlled territory was the most important of these efforts, as 
it hindered ISIL's ability to tax these funds. We estimate salary 
payments to ISIL-held areas amounted to at least $170 million per month 
in 2015, or the equivalent of roughly $2 billion per year. The United 
States has also worked closely with the Government of Libya to help 
them improve their ability to monitor and protect the Libyan financial 
system from exploitation by ISIL.
    The Department of State is also building partner capacity to 
counter-terrorist financing in a variety of ways, including helping 
partner nations build their capacity to identify, investigate, and 
prosecute illicit financial transactions and improve domestic anti-
money laundering and counterterrorism finance regulations.
    Disrupting ISIL's financial networks is one of our top priorities, 
and our efforts have succeeded in forcing ISIL to cut salaries. There 
is no question ISIL remains a well-funded terrorist group, and they 
have proven resilient and adaptable in the face of sustained pressure 
from the United States and our Coalition partners. We will continue to 
adapt our tactics to maintain the effectiveness of our economic 
campaign, and we will use all tools at our disposal to disrupt ISIL's 
finances and cut ISIL off from the international financial system.


                               __________

           responses to additional questions for the record 
            submitted to brett mcgurk by senator ron johnson


    Question 1.  On June 23, 2016, the Committee on Homeland Security 
and Governmental Affairs held a hearing to examine the ideology of 
ISIS. The committee heard compelling testimony from witnesses who spoke 
about ISIS' persecution of certain populations. For example, human 
rights advocate Nadia Murad Basee Taho spoke about Yazidi persecution 
by ISIS. She described the choice given to Yazidis as ``convert or 
die.'' Her mother and six brothers were killed, and she was among 3,000 
Yazidi women and girls forced into sexual slavery. She said that today, 
``captive Yazidis are systematically used as human shields in combat by 
their ISIS captors,'' and ISIS is only encouraged by our ambivalence.
    Please explain what specific actions the United States and 
coalition partners are taking to protect persecuted groups, including 
the Yazidis, from DA'ESH. What specific additional proposed actions are 
planned to protect persecuted minorities from these atrocities? What 
specific actions have been considered, but not undertaken, and why?

    Answer. Since the earliest days of Da'esh's expansion, the United 
States has made clear our intent to degrade and ultimately destroy this 
odious group, and to act decisively to protect civilians threatened by 
mass atrocities. President Obama, in authorizing military operations in 
Iraq in August 2014, declared that ``with innocent people facing the 
prospect of violence on a horrific scale,'' the U.S. government would 
act to prevent a potential genocide. We continue to be guided by this 
basic premise.
    We see several elements as essential to giving Yazidis, Christians, 
and other persecuted minorities a future in their ancestral homelands, 
and we are working to address each of these. They include: defeating 
Da'esh; stabilizing and securing liberated areas; supporting political 
inclusion for all Iraqis and Syrians, including minorities, with equal 
participation in governance; stabilizing and securing the situation for 
refugees and IDPs and promoting their heritage and right to return 
home; and supporting efforts to hold accountable perpetrators of 
atrocities.
    To achieve these aims, the U.S. and its allies continue robust 
military operations against Da'esh, including specific operations aimed 
to safeguard, protect or liberate civilian victims. The State 
Department operates in close and continuing partnership with the 
Department of Defense to share relevant information in real time on 
whereabouts and conditions of persecuted individuals, which are 
directly incorporated into military planning and operations. In our 
policy engagement in Iraq, we have repeatedly emphasized to both the 
national government and the Kurdistan regional authorities the need to 
take measures to protect all Iraqis, including vulnerable religious and 
ethnic minority communities.
    In support of Da'esh's victims, we are funding provision of 
psychosocial assistance, legal services, local dispute mediation, and 
community-based protections in areas to which they have fled and in 
areas to which they have returned. To achieve justice and 
accountability, we currently support the investigation of missing 
person cases in Iraq, and efforts to protect, exhume, and analyze the 
contents of mass graves. We are empowering Iraqi and Syrian civil 
society organizations to document abuses and preserve and analyze 
evidence, and training journalists to report on atrocities and 
government response.
    Our stabilization efforts are focused on areas liberated from 
Da'esh control, as we continue to re-inforce the need for effective, 
inclusive and responsible governance in these areas. We are 
strengthening local groups to advocate for equal access to government 
resources and services irrespective of religion or ethnicity. We also 
support programs designed to restore essential services, provide 
business grants, and address small infrastructure damage as people 
return to their homes. All of these efforts come on top of the billions 
of dollars of humanitarian assistance we have provided--and millions we 
will provide in the coming fiscal year--to those impacted by violence 
in Iraq and Syria and throughout the broader region.


    Question 2.  On January 8, 2016, the State Department announced 
that it was ``revamping its counter-violent-extremism communications 
efforts'' with the creation of a new Global Engagement Center (GEC). 
The Administration established the GEC to ``more effectively 
coordinate, integrate and synchronize messaging to foreign audiences 
that undermines the disinformation espoused by violent extremist 
groups, including ISIL and al-Qaeda, and that offers positive 
alternatives.''
    What progress has the GEC made in accomplishing this goal? What 
specific additional actions is the GEC planning to take in order to 
meet this goal? Has it been successful in seeking out partners in the 
Muslim community that can provide effective alternative narratives to 
ISIS' recruitment messaging? If so, please provide some examples. What 
steps has the GEC taken or is planning to take to coordinate its 
efforts with those of other members of the Global Coalition to Counter 
ISIL?

    Answer. The GEC has made significant progress in coordinating, 
integrating, and synchronizing all U.S. government communications 
directed at foreign audiences abroad to diminish the influence of 
violent extremists. The GEC has detailees from the Departments of 
Defense, Homeland Security, and from across the Intelligence Community. 
When fully operational, the Center will also comprise staff from the 
private sector, as well as the Departments of Treasury, Justice, and 
USAID. Working across these agencies, the Center identifies 
efficiencies and opportunities to counter violent extremist messaging 
in the messaging space.
    The Center is designed to be as agile and adaptive as our adversary 
and is armed with new authorities, personnel, and cutting-edge 
technology. The GEC utilizes state of the art digital analytics tools 
from the Intelligence Community, DARPA, and the technology sector. 
These tools and technologies help us tailor messages to our audience 
and measure the impact of our efforts.
    The Center is taking a fundamentally new approach in countering 
violent extremist messaging in the information space. We have pivoted 
toward partner-driven messaging and content, because while the U.S. 
government has a good message to tell, there are an abundance of 
credible and diverse voices across the Middle East, Europe, and 
Africa--governments, NGOs, and civil society groups--that we are now 
leveraging in this fight. We do not publicize who many of our partners 
are in order to avoid exposing them to unnecessary danger, but the 
following are a couple of examples.
    In Kosovo, we recently completed a training program with local 
NGOs, designed to amplify credible voices against violent extremism 
there. Kosovo is a compelling location because it has one of the 
highest numbers of foreign terrorist fighters per capita in Europe, and 
an active NGO community focused on countering violent extremism.
    In East Africa we worked with a civil society partner to establish 
an online, mobile-enabled radio station in Swahili. It airs youth-
produced programming that counters the rising volume of violent 
propaganda in the region. The content is aimed at youth living in 
neighborhoods where violent extremists recruit. Separately, in the same 
region, we run an interactive SMS program to reach populations in 
inaccessible areas.
    The GEC is not just coordinating efforts to counter violent 
extremist messaging across the U.S. government, it is also coordinating 
with partners in the Global Coalition to Counter ISIL. One example of a 
Coalition partnership is the Sawab Center in Abu Dhabi, a joint 
messaging center where Emiratis work alongside Americans to counter 
ISIL online. Since July 2015, Sawab has launched nine original social-
media campaigns, ranging from voices of victims and defectors, to 
affirming positive messages such as national pride. Each campaign has 
averaged over 125 million impressions on social media, and Sawab has 
consulted and shared its experience with 20 countries and international 
organizations interested in similar efforts to counter violent 
extremism.
    In addition to the Sawab Center, the United States is backing 
efforts to create additional countering violent extremist messaging 
centers in other counter-ISIL coalition nations. Most promisingly, a 
new messaging center is slated to open in Malaysia later this year, 
which is a major step forward in our efforts to reach those vulnerable 
to violent extremist radicalization and recruiting efforts in Southeast 
Asia.
    The GEC information campaigns that counter ISIL, in addition to 
violent extremist account suspensions by social media service 
providers, and ISIL's battlefield losses have contributed to a 
significant decline in ISIL's online propaganda activities since 2014. 
For example, we have seen that pro-ISIL postings on social media have 
recently shrunk from .018 percent of total Twitter postings to .012 
percent of total Twitter postings.


   According to GEC's Office of Analytics, pro-ISIL postings on 
        Twitter have decreased by 45 percent since 2014 due to 
        increased suspensions and increased anti-ISIL sentiment after 
        ISIL atrocities.

   GEC's information campaigns and building of partners' capacity have 
        contributed to a strong anti-ISIL movement online, which this 
        year outnumbers ISIL at a ratio of roughly 6 to 1 on Twitter, 
        according to data obtained by GEC's Office of Analytics.


    Using this partners-first, data-driven approach, the Center is 
making progress toward discrediting ISIL's narrative and breaking their 
brand.


                               __________




                                  [all]
</pre></body></html>
